<html>
<title> - [H.A.S.C. No. 113-38]BUDGET REQUEST FROM THE DEPARTMENT OF THE ARMY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-38]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

 
                        BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                             APRIL 25, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
80-767                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  

                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
              Catherine Sendak, Professional Staff Member
                  Doug Bush, Professional Staff Member
                           Aaron Falk, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, April 25, 2013, Fiscal Year 2014 National Defense 
  Authorization Budget Request from the Department of the Army...     1

Appendix:

Thursday, April 25, 2013.........................................    57
                              ----------                              

                        THURSDAY, APRIL 25, 2013
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

McHugh, Hon. John, Secretary of the Army.........................     3
Odierno, GEN Raymond T., USA, Chief of Staff, U.S. Army..........     6

                                APPENDIX

Prepared Statements:

    McHugh, Hon. John, joint with GEN Raymond T. Odierno.........    64
    McKeon, Hon. Howard P. ``Buck''..............................    61
    Smith, Hon. Adam.............................................    62

Documents Submitted for the Record:

    Army Reserve Component Supporting Statement..................    89

Witness Responses to Questions Asked During the Hearing:

    Mr. Barber...................................................   109
    Mr. Forbes...................................................   109
    Ms. Hanabusa.................................................   110
    Mr. Thornberry...............................................   109

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................   125
    Ms. Duckworth................................................   122
    Mr. Garamendi................................................   117
    Mr. Loebsack.................................................   115
    Mr. Miller...................................................   115
    Mr. Palazzo..................................................   123
    Mrs. Roby....................................................   124
    Mr. Runyan...................................................   121
    Ms. Tsongas..................................................   116
    Mrs. Walorski................................................   126
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 25, 2013.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning. The committee will come to 
order.
    Good morning.
    The committee meets today to receive testimony on the 
President's fiscal year 2014 budget request for the Department 
of the Army.
    I am pleased to welcome Secretary John McHugh and General 
Ray Odierno. It is great to see both of you again. Thank you 
for being here.
    Our Nation is very fortunate to have the two of you leading 
our army during these challenging times.
    I note that in your written testimony, you state that 
America's Army is the best-trained, best-equipped, best-led 
fighting force in the world providing a credible and capable 
instrument of national power. I absolutely agree with you.
    But what we need your help with is understanding the risks 
associated with the Army's continued ability to meet the 
national security needs of this Nation and the critical 
assumptions behind these risks. For example, we hope to learn 
more about the Army's plan to reduce the size of its force. 
With last year's budget request based on the Budget Control 
Act, the Army announced that it would reduce end strength to 
490,000 Active Duty soldiers, the minimum required to 
accomplish national security requirements.
    The drawdown would require the Army to go from 45 Active 
Duty Brigade Combat Teams to 37. To date of the eight BCTs 
[Brigade Combat Team] will be deactivated, we have been told 
that two of the eight will be armored BCTs. We have also been 
told that the Army plans on adding a third maneuver battalion 
into each Active Component Army and infantry BCT.
    It is our understanding that as a result of adding a third 
maneuver battalion, the total number of Active Component BCTs 
will go to some number below the 37. However, it is a year 
later, and we still do not know how many BCTs the Army plans on 
drawing down to or where the Army will take the BCTs from.
    Equally important, we do not know what type of BCTs the 
Army thinks it needs. This includes armor, infantry, and 
Stryker. I know that we are in difficult times and that hard 
choices must be made. I also know that you don't know from week 
to week what kind of money you are going to be having from the 
Congress, but I--it is tough, but I hope that your testimony 
today will highlight the areas of greatest risk and help this 
committee and others in Congress make the right choices.
    Again, thank you both for your continued service to our 
nation. And I look forward to your testimonies.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 61.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I want to echo the chairman's comments and thanks to both 
Secretary McHugh and General Odierno for their outstanding 
leadership of the Army, and to the--all of those who serve in 
the Army. It is an amazing force doing amazing things all over 
the world, and we thank them for their service and sacrifice.
    And look forward to hearing today more about the 
President's budget. I think it is a realistic look at the next 
5--sorry--at fiscal year 2014, and then planning beyond. I am 
sure there are questions. The Chairman raised some good ones, 
and there will be more about the specifics of how that is 
implemented, and we will look forward to hearing about that.
    But, of course, all of that is based on the assumption that 
sequestration magically goes away some time, you know, 
between--at a minimum between now and when fiscal year 2014 
starts. So we would also like to hear from you about how you 
deal--continue to deal with the reality of fiscal year 2013 
sequestration, but then also, you know, looking forward. It is 
the gift that keeps on giving: fiscal year 2013, 2014, 2015, 
2016, 2017. Until we turn it off, it is always going to be 
there, first, lurking in the back of your mind as you attempt 
to plan, and then, second, right there up front as something 
that you have to deal with, as you are dealing with it right 
now for fiscal year 2013.
    You know, I will emphasize again that, you know, the best 
thing Congress could do right now is one way or the other turn 
off sequestration. You know, if we can get a budget deal to get 
there, great. But this notion that somehow torturing the 
discretionary budget and torturing the defense budget in 
particular to force us to get a budget deal is ridiculous. 
Clearly, it is not working; it is not forcing that to happen. 
And second, it is doing great damage while we are waiting for 
it to happen. So want to hear more about that.
    And then lastly, would like to hear more about the sexual 
assault issue.
    And I want to commend--I was at a dinner with General 
Odierno awhile back where he brought in some of the leaders in 
Congress who are concerned about this issue, had a very frank, 
very direct discussion about what had gone wrong, what was 
going to be done to get right. And I personally am very 
confident of the seriousness of the Army and of the Pentagon 
writ large to try to address this problem.
    But it is still a large and vexing problem. And one of the 
big issues that I would love to hear you talk about is the push 
to change the way the UCMJ [Uniform Code of Military Justice] 
works and to take away the commanders' authority over these--
over sexual assault and sexual harassment cases. There has 
been, you know, the most recent case in the Air Force of a 
decision being overturned by a commander that has generated a 
lot of attention.
    I know the military in particular--or the military in 
general and the Army in particular doesn't want to see that 
change, because the command structure is the command structure. 
But there is going to be increasing pressure to separate that 
legal process from the command if there is not visible progress 
made on protecting our men and women from sexual assault and 
sexual harassment.
    So I would love to hear more comments from you about your 
concerns about that particular change and what we might be able 
to do to address the issue short of doing that.
    Thank you again for being here. Thank you for your service.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 62.]
    The Chairman. Thank you.
    Mr. Secretary.

      STATEMENT OF HON. JOHN MCHUGH, SECRETARY OF THE ARMY

    Secretary McHugh. Mr. Chairman, thank you very much.
    Distinguished Ranking Member Smith and equally 
distinguished members of the committee, fourth time back. It is 
always a special opportunity; brings back a lot of very fond 
memories, most of which don't involve me sitting at this table, 
but it is always good to be with you.
    And to talk a bit about the extraordinary work of America's 
Army this past year, talk about its current state, and of 
course the vital requirements that are necessary to sustain our 
combat power today and tomorrow and beyond.
    Honestly, I wish I had better news to share, but today we 
find our Army at a very dangerous crossroads which, if we as a 
nation choose the wrong path, may severely damage our force, 
further reduce our readiness, and hamper our national security 
for years to come.
    As you know, over the last 12 years, this Nation has built 
the most combat-ready, capable, and lethal fighting force the 
world has ever known. From Iraq and Afghanistan to the Horn of 
Africa and Korea, we have fought America's enemies. We have 
supported our allies and deterred would-be aggressors with 
unprecedented skill, determination, and quite frankly, results.
    Over the past year, we have seen great success in 
operations ranging from counterterrorism and counterinsurgency 
to homeland security and disaster response. Soldiers and 
civilians from all the Components--Active, Guard, and Reserve--
have repeatedly risked their lives to defend our freedom, save 
the lives of others, and to support our citizens in recovering 
from hurricanes, wildfires, and even droughts. There has been 
no foreign enemy, natural disaster, or threat to our homeland 
that your Army has not been prepared to decisively engage.
    Unfortunately, today we face an unparalleled threat to our 
readiness capabilities in soldier and family programs, and that 
danger comes from the uncertainty caused by continued 
sequestration funding, through repeated continuing resolutions, 
and significant shortfalls in overseas contingency accounts.
    In fiscal year 2013, the blunt axe known as sequestration, 
which as you know struck in the last half of this year, on top 
of the $487 billion in Departmentwide cuts already imposed by 
the Budget Control Act, forced us to take extraordinary 
measures just to ensure that our warfighters have the support 
needed for the current fight. We made those hard decisions, but 
at a heavy price to our civilian employees, to our training 
needs, maintenance requirements, readiness levels, and to a 
myriad of other and vital programs necessary to sustain our 
force and develop it for the future.
    For the Army, sequestration canceled and created an 
estimated shortfall of $7.6 billion for the remaining 6 months 
of fiscal year 2013. This includes nearly $5.5 billion in the 
operations and maintenance accounts alone. The impact of this 
drastic decline over such a short period will directly affect 
and significantly impact the readiness of our total force.
    We have reduced flying hours, frozen hiring, and released 
hundreds of temporary and term workers. We were forced to 
cancel initial entry training for more than 2,300 military 
intelligence soldiers, reduce training to the squad level for 
all our nondeploying units, and we had to cancel all but 2 of 
the remaining brigade decisive action rotations at our national 
training center. And this is on top of drastic impacts to our 
depot, vehicle facility maintenance programs, and others.
    Unavoidably, these negative effects will cascade well into 
next year and beyond. Simply put, to continue sequestration 
into 2014 and for the years following would not only be 
irresponsible and devastating to the force, but it would also 
directly hamper our ability to provide sufficiently trained and 
ready forces to protect our national interests.
    Moreover, full implementation, as the ranking member noted, 
through fiscal year 2021 will require even greater force 
reductions that will dramatically increase our strategic risk. 
And I will give you an example. Just to maintain balance, we 
may have to reduce over 100,000 additional personnel across all 
three components. And when you couple those cuts that--with the 
cuts already driven by the Budget Control Act, your Army could 
lose up to 200,000 soldiers over the next 10 years alone.
    As such, to mitigate against the continued impacts of such 
indiscriminate reductions, the President's fiscal year 2014 
budget request, as in the House and Senate resolutions, does 
not reflect further sequestration cuts. Rather, we attempt to 
protect some of our most vital capabilities which were 
developed over nearly a dozen years of war, and to hedge 
against even further reductions in readiness.
    We hope that if additional funding reductions are required, 
they are properly backloaded into later fiscal years so that we 
are provided the time and the flexibility necessary to 
implement them as responsibly as possible.
    For all its challenges, continued sequestration is only 
part of the danger we face. Since fiscal year 2010, the Army 
has experienced funding through some 15 differing continuing 
resolutions. This has caused repeated disruptions in our 
modernization efforts, uncertainty in our contracts, and 
unpredictability for our industrial base. Each continuing 
resolution prevents new starts for needed programs and creates 
inefficiencies that often result in wasteful spending for 
things we no longer need and can no longer afford. As you know, 
this year it was 6 months into the fiscal year before we had an 
appropriation. And for all of that, there is more. While we 
remain at war with a determined enemy in Afghanistan, while 
simultaneously conducting retrograde operations, we must 
remember that OCO [Overseas Contingency Operations] funding is 
absolutely essential. Unfortunately, your Army currently faces 
up to a $7.8 billion deficit in overseas contingency funding 
for this year.
    Although as noted earlier, we will not allow our 
warfighters to suffer, OCO shortfalls disrupt our ability to 
repair and reset equipment, and directly impact our organic and 
commercial industrial bases. Continued budget uncertainty 
jeopardizes our ability to have the right forces with the right 
training and the right equipment in the right place to defend 
our Nation. Our readiness has suffered. Our equipment has 
suffered. And if we are not careful, our people may suffer as 
well.
    Accordingly, more than ever, we need you, our strategic 
partners, to help us ensure that America's Army has the 
resources, tools, and force structure necessary to meet our 
requirements at home and abroad. The Army's fiscal year 2014 
budget request is designed to do just that. As you will see, 
the fiscal year 2014 submission meets our current operational 
requirements, while allowing us to build an Army to meet future 
challenges through prudently aligning force structure, 
readiness, and modernization against strategic risk.
    First, it helps us balance readiness across the total 
force--Active, National Guard, and Reserve. It allows us to 
refocus training toward core competencies and supports a steady 
and sensible transition to a smaller force. Second, it 
reinforces the Army's central role in the defense strategy by 
allowing us to strengthen our global engagements with 
regionally aligned forces, and ensures that we remain a 
linchpin of the rebalance toward the Asia-Pacific theater.
    Third, it provides for vital reset and replacement of 
battle-damaged equipment, helps to support our industrial base, 
and funds key modernization priorities focused on soldier squad 
systems and network and enhanced mobility.
    Most importantly, it sustains our commitment to soldiers, 
civilians, and their family members, many of whom continue to 
deal with the wounds and illnesses and stresses of war. From 
suicide prevention and wounded warrior programs to resiliency 
training and sexual assault prevention and prosecution, this 
budget is designed to strengthen, protect, and preserve our 
Army family using those programs that are efficient, effective, 
and comprehensive.
    We have, as I know all on this committee agree, a sacred 
covenant with those who serve and with all of those who support 
them and we must not break it.
    Nevertheless, we recognize our Nation's fiscal realities. 
And as such, our budget proposal will further these vital goals 
with a 4-percent reduction from fiscal year 2013's base budget 
achieved through prudent, well-planned reductions, not 
indiscriminate slashing. So in conclusion, on behalf of the men 
and women of your Army, let me thank you again for your 
thoughtful oversight, unwavering commitment, and proud 
partnership. With your support, as this committee I know 
firsthand has all so effectively done over so many years, the 
Army has become the finest land force in history. Now, as in 
the past, we need your help to protect the hard-fought 
capabilities developed over years of war and to ensure that we 
have the resources needed to meet the unforeseen challenges 
that lie ahead.
    Our soldiers, civilians, and family members are second to 
none, as you know so well. They are patriots working tirelessly 
every day to support and to defend freedom. America's Army has 
succeeded in Iraq, is making progress in Afghanistan, and as 
this budget demonstrates, is focused on completing the current 
fight as we transform into a leaner, more adaptable force.
    To do so, we need flexibility, predictability, and the 
funding necessary to ensure we have highly trained and ready 
forces to meet the mission. As we face these crossroads 
together, it is critical that we choose the right path for our 
soldiers, our Army, and our Nation.
    And thank you, Mr. Chairman. I look forward to the 
committee's questions.
    [The joint prepared statement of Secretary McHugh and 
General Odierno can be found in the Appendix on page 64.]
    The Chairman. Thank you.
    General.

STATEMENT OF GEN RAYMOND T. ODIERNO, USA, CHIEF OF STAFF, U.S. 
                              ARMY

    General Odierno. Thank you, Chairman McKeon, Ranking Member 
Smith, and all the other distinguished members of the 
committee.
    First, I want to thank you for your continued commitment to 
all our soldiers and families, especially over the past 12 
years, where the partnership has enabled us to properly support 
them, ensuring they have what they need to be successful during 
their deployments.
    Second, I want to thank the Congress for its hard work in 
passing the fiscal year 2013 Consolidated Appropriations and 
Further Continued Appropriations Act. We very much appreciate 
your help, which alleviated nearly $6 billion of the $18 
billion shortfall to the Army's operation and maintenance 
accounts in fiscal year 2013.
    I am humbled to be sitting here representing the 1.1 
million soldiers, 255,000 Department of the Army civilians, and 
1.4 million family members of the United States Army. I am 
extremely proud of the competence, their character and 
commitment of our soldiers and civilians, their sacrifice, and 
their incredible accomplishments.
    I remind everyone as we sit here today, the U.S. Army has 
nearly 80,000 soldiers deployed and more than 91,000 forward-
stationed in 150 countries, including almost 60,000 in 
Afghanistan, thousands of others in Kuwait, Korea, new 
deployments, with command-and-control capability to Jordan, 
Patriots to Turkey, THAAD [Terminal High Altitude Area Defense] 
batteries to Guam, and many other places around the world.
    Our forces in Afghanistan continue to conduct a successful 
transfer of security responsibility to the Afghan national 
security forces, who increasingly demonstrate the self-
reliance, confidence, and capability to protect their 
population and secure a more stable political future.
    Today the Army's primary purpose remains steadfast, to 
fight and win the Nation's wars. We will continue to be ready 
to do that, even as we do our part to help the country solve 
our fiscal problems.
    But the timing, magnitude, and method of implementing 
budget reductions will be critical. In fiscal year 2013 the 
Army still faces more than $13 billion operations and 
maintenance shortfalls, which includes a $5.5 billion reduction 
to the Army's base budget and a $7.8 billion shortfall to 
overseas contingency operations accounts.
    As a result, we have taken drastic actions to curb spending 
in the final 6 months of the year. We have curtailed training 
for 80 percent of the force, canceled 6 brigade maneuver combat 
training center rotations, cut 37,000 flying hours, initiated 
termination of 3,100 temporary employees, and canceled third- 
and fourth-quarter depot maintenance, and are planning to 
furlough our valued civilian workforce for 14 days in fiscal 
year 2013.
    The cost of these actions is clear. We are sacrificing 
readiness to achieve reductions inside the short period of the 
fiscal year. And readiness cannot be bought back, not quickly 
and not cheaply.
    So I am concerned that the problems created by the over-$13 
billion shortfall will push into fiscal year 2014 and beyond.
    The Army's fiscal year 2014 base budget submission of 
$129.7 billion enables us to support the 2012 defense strategy 
in fiscal year 2013, but does not account for the decay in 
readiness that will impact the Army as a result of these fiscal 
year 2013 problems.
    In addition to this base budget, the Army will continue to 
require OCO funding for operations in Afghanistan and to 
continue to reset our force. The Army has submitted a separate 
request for fiscal year 2014 OCO. It is critical that this 
request be fully funded.
    I would implore all of us to work together so that we 
receive a fiscal year 2014 national defense authorization and 
fiscal year 2014 budget on time. This will allow us to properly 
plan for and mitigate the risk associated with declining 
defense budgets.
    It is imperative that we gain predictability in our budget 
process. If we don't, we will be unable to officially and 
effectively manage our resources, and it will be impossible to 
make informed decisions about the future of the Army.
    I also think that it is in the best interest of our Army, 
the Department of Defense, and our national security to avert 
sequestration. The size and steepness of cuts required by 
sequestration make it impossible to downsize the force in a 
deliberate, logical manner that allows us to sustain an 
appropriate balance of readiness, modernization, and end 
strength.
    The cuts are simply too steep. We just cannot move enough 
people out of the Army quickly enough to produce the level of 
savings needed to comply with sequester, and, therefore, will 
need to take disproportionate cuts in modernization and 
readiness.
    Let me explain: Under sequestration the Army would need to 
again absorb immediate cuts in fiscal year 2014. This would 
likely force us to cut personnel accounts, reductions that 
could equate to tens of thousands of soldiers. But by the time 
we paid separation benefits for these soldiers, the cost to 
separate them would exceed the savings garnered.
    The maximum we could reduce the force without breaking 
readiness and inducing excessive separation costs is about 
20,000 soldiers per year. But this would only save us about $2 
billion a year.
    So right now, almost the full weight of the sequester will 
again fall on modernization and readiness accounts, where such 
drastic cuts will take years to overcome. The net result will 
be units that are overmanned, unready, and unmodernized.
    The steepness of the cuts of sequestration forces us to be 
hollow.
    Even though I think the level of sequestration cuts are too 
large, if we backload them into the later years of sequester 
period, it would allow us the opportunity to properly plan and 
to sustain the balance we need in these uncertain times.
    In spite of fiscal unpredictability and the impacts of 
sequestration, it is our responsibility to take action now to 
reshape the Army for the future.
    As you look to fiscal year 2014 and beyond, our foremost 
priority is to ensure that our soldiers deployed on our 
operational commitments are trained, ready, and able to execute 
their missions. Simultaneously, we will continue to draw down 
the force. We are on schedule to remove 89,000 soldiers from 
the Army by fiscal year 2017 due to budget reductions levied by 
the 2011 Budget Control Act.
    So far, most of these cuts have come from overseas 
formations, specifically in Europe.
    In fiscal year 2014, future force reductions will affect 
almost every Army and joint installation across the United 
States. We will release our plans for these reductions in June.
    The key to the current drawdown is to maintain the right 
balance between end strength, readiness, and modernization, so 
that we are properly sized and ready for whatever the country 
needs done.
    Such an evenhanded approach is the only acceptable way, 
one, while the world remains such an unstable place, the most 
unstable I have seen in my nearly 37 years of service.
    Full sequestration will dangerously steepen that drawdown 
ramp. It will require us to reduce a minimum of another 100,000 
soldiers from the total Army, on top of the 89,000 soldiers 
already being reduced.
    This will result in a 14-percent reduction of Army end 
strength and an almost 40-percent reduction in our Brigade 
Combat Teams.
    In addition, these reductions will degrade support to 
combatant commanders in critical areas such as missile defense, 
special operations, cyber, logistics, intelligence, and 
communication.
    And cuts of this magnitude will leave us with an excess 
infrastructure, making a future round of BRAC [Base Closure and 
Realignment] essential.
    Sequestration will degrade our ability to take care of our 
soldiers and families that have fought so hard and sacrificed 
so much over the last 12 years, both those who are leaving the 
Army and those who choose to stay in the Army.
    Sequestration will make it impossible to execute a 
responsible drawdown, and it will challenge our ability to 
support the 2012 defense strategic guidance.
    Looking to the future, we are reposturing our force to be 
globally responsive and regionally engaged.
    We are aligning forces to geographic combatant commanders 
to provide mission-tailored, sized and scaled organizations for 
operational missions, exercises and theater-security 
cooperation activities.
    For times of crisis, we will maintain a global response 
force, capable of conducting forced entry on short notice. We 
will reinvest in our expeditionary capabilities to deploy 
forces quickly and efficiently anywhere in the world. And we 
are refining the integration of our conventional special 
operations forces and cyber capabilities to ensure we can 
handle a broad range of emerging threats.
    In this uncertain world, we need an Army that conducts many 
missions at many speeds, at many sizes, and under many 
conditions. Going forward, the Army will evolve into a force 
that can deploy and sustain capabilities across the range of 
military operations anywhere in the world, on short notice. It 
will have increased flexibility and agility in both its 
formations and hopefully its acquisition systems.
    Our modernization strategy will center on the Army's 
strength, the soldier, making him the most discriminately 
lethal weapon in the U.S. military.
    We will provide our soldiers with the network connections 
to give them unparalleled access to information and 
intelligence, so that they can make timely decisions all over 
the world.
    And we will provide our soldiers with tactical mobility, 
survivability, and lethality to take decisive action, no matter 
what the mission might be.
    As we prepare to operate in an increasingly complex and 
uncertain environment, our number one priority is to invest in 
our leaders. This spring we will roll out a brand-new leader 
development strategy which will invest in our soldiers' 
training, education, and development. It will fundamentally 
change the way we train, educate and assign, assess and promote 
our leaders. It will be the foundation of our future Army.
    We will continue our efforts to take care of our soldiers. 
Twelve years of war has taught us the importance of building 
and sustaining the resiliency of our soldiers, civilians, and 
our family members.
    Just this year, we rolled out the Army Ready and Resilient 
campaign. This holistic effort to build the emotional, mental, 
physical, and spiritual health of our soldiers will pay 
dividends in all three components.
    Caring for wounded warriors and keeping faith with veterans 
is essential to honoring their service. Our Soldier for Life 
campaign will ensure that our soldiers transition successfully 
into civilian life and enrich our American society with their 
Army experience.
    With the support of Congress, we will maintain a military 
pay and benefits package, including affordable, high-quality 
health care, that acknowledges the burdens and sacrifice of 
service, while remaining responsive to the fiscal environment.
    Manpower costs make up 44 percent of the Army's fiscal year 
2014 budget. We need to work together to slow the rate of 
growth, while meeting our soldiers' needs.
    We are at a strategic point in the future of the U.S. Army 
and our military. We must strike the right balance of 
capabilities both within the Army and across the joint force.
    Our history tells us that if we get out of balance, our 
enemies will seek to take advantage.
    Our soldiers are the finest men and women our country has 
to offer. Since 2001, more than 1.5 million soldiers have 
deployed, and more than half-a-million have deployed two, 
three, four, or more times.
    More than 35,000 soldiers have been wounded, and over 4,800 
have made the ultimate sacrifice to defend this great nation.
    It is our responsibility to ensure that we will never send 
soldiers into harm's way that are not trained, equipped, well-
led, and ready for any contingency, to include war.
    It is our responsibility to honor their service and the 
sacrifice of our veterans, whether they remain in uniform or 
transition back to civilian life.
    The strength of our Nation is our Army. The strength of our 
Army is our soldiers. The strength of our soldiers is our 
families, and that is what makes us ``Army Strong.''
    Thank you, Mr. Chairman. And thank you very much for 
allowing me to testify here today. I look forward to your 
questions.
    The Chairman. Thank you very much.
    I noticed that last year's budget documents referenced a 
rebalancing to the Pacific, while this year's references a 
rebalancing to both the Pacific and the Middle East.
    It is unclear if that nuance is significant in your ongoing 
analysis. I raise the point because I am particularly concerned 
that the Army might sacrifice the full-spectrum capability of 
armored BCTs, since they are more expensive to equip and 
maintain.
    I believe that it is critical for this committee to 
understand the assumptions underlying the force structure 
changes that the Army has been considering for over a year. As 
you know, our full committee markup is the first week of June.
    General Odierno, as you consider the pending force 
structure and force-mix changes I discussed in my opening 
statement, are you equally weighting an Asia-Pacific or Middle 
East scenario? Is one seen as more or less likely?
    And Mr. Secretary, how do we fulfill our constitutional 
oversight responsibilities if we do not have the timely insight 
as to what these changes are? When do you intend to announce 
the pending force structure changes, and the bases that will be 
impacted by these changes?
    General Odierno. Mr. Chairman, thank you very much.
    First, as we continue to rebalance towards the Pacific, the 
next priority is maintaining a capability in the Middle East, 
and that is as per the defense strategy. And we are staying 
very true to that statement.
    As we look around and look at how we have done significant 
analysis of the type and capability of the units that we will 
need to score at both the Pacific and the Middle East. For 
example, there is a need for a combination of light infantry 
armor and medium capability on the Korean peninsula. There is a 
need for the combination of medium armor and light infantry in 
the Middle East.
    So as we come forward with our force structure, you will 
see that we sustained a right balance between the three. We 
believe that is the unique capability that the Army brings. And 
we are able to task-organize ourselves in order to meet 
whatever the needs are, whether it be a combination of light, 
medium or heavy, or heavy, or light depending on the 
environment that they have to operate in.
    So you will see us maintain a level of balance between 
those capabilities as we move forward. Although the size will 
be smaller.
    Secretary McHugh. Mr. Chairman.
    As you and I talked previously, if I were still a member of 
this committee and representing a base as I did for 17 years I 
would be interested very much in the questions that you are 
asking. And I want to assure you we deeply appreciate that. We 
want to provide you the information as it is available that 
allows this committee and the Congress to do its appropriate 
oversight responsibilities.
    As you know, and contrary to what some believe, the 
exercise we are currently involved in is really in reaction to 
the Budget Control Act that calls for us to reduce force 
strength down to 490,000. It really has nothing at the moment 
to do with sequestration.
    And under Federal law there are processes by which we have 
to follow those kinds of objectives, and most principally under 
the National Environmental Protection Act, NEPA, to assess the 
requirement of a possible full environmental impact statement. 
We pursued that through what we call the PEA, Programmatic 
Environmental Assessment.
    We looked at 21 facilities. Determined those sites based on 
the likelihood of a certain maximum gain of soldiers versus a 
certain maximum loss, 1,000 soldiers in either case. And that 
has been recently completed. The net effect was that none of 
the locations was there determined to be a significant 
environmental impact that would require a follow-on full 
environmental impact statement.
    At the moment in part at the request from a good number of 
members of this committee, we are conducting public listening 
sessions across more than 30 communities and locations to 
provide the opportunity for citizen and civic organizations to 
come forward to share their perspective, to provide any 
information that they think would be of value to the Army as we 
go forward and make these final decisions.
    I hope, and I expect, we will have that information back in 
the month of May, probably mid-to-later May, and then give it, 
its appropriate analysis. And I expect we will have a final 
basing decision to be announced by mid-June--I am shooting at 
mid-June for the latest.
    We have attempted--and I make a commitment to you, Mr. 
Chairman, the Ranking Member, all the members of this committee 
to share with you all of the input information we possibly can 
as we go forward. We have certain set criteria by which we make 
these evaluations, geographic distribution, military value, and 
cost of investment necessary, et cetera.
    Those are available--I believe we have, but if we have not 
as yet briefed the PSMs [Professional Staff Members] who can 
carry that information to you I promise you we will do that as 
soon as we possibly can.
    The second piece of the analysis of course is to weighting 
of each one of those factors. Those decisions have not been 
met. I believe the--paperwork is with the Chief. He is 
reviewing. He will thereafter make his recommendations to me. 
He and I will go forward with that. And when we have those 
weighting factors again we will share them with the PSMs. We 
won't wait for the final analysis.
    The Chairman. Thank you very much.
    Secretary McHugh. Sir.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    And I want to echo the Chairman's comments a little bit. No 
matter how these decisions come out, it is going to be hell. I 
don't want to tell you that if you like follow the right 
process and you are perfectly transparent then everything will 
be fine. It is not. I will say that it would be worse, I mean, 
the Air Force went through this with, you know, the Guard stuff 
of course last year. And by their own admission did a very poor 
job of working with the impacted states and impacted 
communities and made it much worse.
    So transparency doesn't, you know, buy us necessarily a 
pain free experience, but I think it makes it work better. So 
the more you can keep us informed, and keep the impacted States 
informed of what is going on the better off you are going to 
be.
    I just want to follow up on my opening comment on the UCMJ 
and the sexual assault situation, specifically your thoughts on 
taking the commander out of those criminal cases and 
essentially turning it over straight to the JAG [Judge Advocate 
General].
    And tell us a little bit about, you know, how that impacts 
the culture, the concerns you would have in terms of how that 
would impact the command and whether or not that is a doable 
solution as a way to confront, you know, the very, very great 
sexual assault, sexual harassment problem that impacts by the 
way, not just women, but men as well who have been victims of 
these assaults.
    Is that a realistic approach?
    What are the limitations of it?
    Is there a halfway step towards it that could be helpful?
    General Odierno. Congressman, I would say, first off, we 
understand why we have to continually review this, to make sure 
that all the procedures are in place. And I believe that we 
have to work together on this and build some mutual trust with 
the importance of the UCMJ and the impacts it might have on 
sexual assaults, specifically.
    Couple things I would just say having been working with the 
military justice system for a very long time it really is 
essential to commander's authority. And, you know, the 
commander is responsible for the good order of discipline and 
health of the force, and what the UCMJ provides him is ability 
to punish quickly, locally, and visibly. And we can't ever lose 
that capability.
    So, what I think we have to do is take a deliberate 
approach to this to review what is the best way for us to give 
that--leave that flexibility with the commanders and make sure 
we are meeting with the intent of ensuring that those who 
deserve to be prosecuted for any incident, but specifically 
sexual assault, is taken into account.
    You know, we clearly believe we have to protect the 
victims. We have to do justice and deter the crime of sexual 
assault. We believe we have to preserve the good in our system. 
We talk a lot about trust between soldiers, and until we are 
able to prove that we are going to--we will not tolerate sexual 
assault, sexual harassment, it is hard for us to build complete 
trust with the female members of our----
    So I truly believe that UCMJ is critical to this. I think 
we have to be very careful about changes that we make. I 
suggest we do it in a very deliberate manner, working together 
to ensure that we understand all of the impacts.
    Mr. Smith. If I may, on that, I understand the point you 
are making on the front end, because, you know, as someone who 
used to prosecute domestic violence cases, a lot of times, you 
know, the evidence--there is no case to be made. The UCMJ gives 
the commander flexibility and time for the JAG probably 
couldn't do anything.
    General Odierno. That is correct.
    Mr. Smith. I mean, from a legal standpoint, they couldn't 
get there. And I get that.
    Where you run into problems is with this Air Force case, 
where essentially the commander made himself a jury of one and 
said, ``Well, okay the jury reached that conclusion, but I have 
looked at the evidence, I have look at the rulings that the 
judge made, I think he is wrong and I am going to overturn 
it.''
    That is very, very problematic, you know, because once you 
set up the JAG--the system is the system, I mean, you know some 
average person watching ``Court TV,'' you know, or you see it 
could reach a different conclusion, but the reason we set up 
the legal system we set up within the UCMJ is because the jury 
system is there.
    So that is--there is some way to walk our way between that. 
I think taking it completely away from the commander will 
eliminate some--would hurt that flexibility, but that example 
of the commander just saying, ``Nope, jury nullification I 
don't agree.'' That is a problem.
    General Odierno. I would just say that I think we have 
worked very carefully, the Joint Chiefs have worked very 
carefully on this issue. And we gave a recommendation to the 
Secretary which talked about taking a look at this. And we 
believe for felony offenses that in the adjudication phase that 
we recommend we take the commander out of that, but you keep 
lower level findings and move forward.
    I think that was a very good recommendation.
    What I worry about is, there has been some discussion on 
getting in the front end of UCMJ. And that is problematic. And 
so I want to make sure that we go about this in a very 
deliberate manner. There is--so what we don't want to do is 
take the capability of the commander to use UCMJ as you pointed 
out, that gives us a range of options to sustain discipline. 
And we don't want to lose that capability. There has been some 
discussion of taking it all away, and we have to be very 
careful about that.
    Mr. Smith. Secretary McHugh, I am sorry.
    Secretary McHugh. Yes, thank you, Mr. Smith.
    I would just add to what the Chief said, and I think all of 
his points were important ones. Secretary Hagel has received 
the input--the official Army position is, ``We support the 
initiative to amend the process by which the case at Aviano 
unfolded to take the commander out as the sole adjudicatory 
authority.''
    And I think it is fair to say Secretary Hagel has committed 
himself to that, although the language is still being worked.
    The other piece just to fill in the total blank, you know, 
wisely this Congress has asked that the Secretary appoint a 
special commission to look at the entire application of the 
UCMJ particularly in these kinds of cases, although in a more 
broad sense. That will probably begin to happen this summer and 
I think it would have value to receive the input of that before 
we take a particularly broad amendment process that changes, as 
you and the chief discussed, from start to finish.
    Mr. Smith. The final----
    Secretary McHugh. The 60-piece, we fully support an 
amendment to that.
    Mr. Smith. Final quick point that I would make is if that 
is going to be the approach, one of the other big issues here 
is that the victims do not trust their commanders in far too 
many instances. So even on the front end, even when, yes, you 
want that adjudi--the authority to basically implement things 
short of a criminal procedure if you can't get there. If the 
men and women in service think, ``Gosh, if I go to the 
commander, this is more likely to be a negative for me than it 
is for me to get any justice.'' That is a big thing to wrestle 
with, even if you are short of the felony and short of all 
that, just the basic openness of it is going to have to be a 
major cultural restructure so the men and women trust that that 
commander isn't going to look at them as a pain that is causing 
problems for the unit, but as someone to be protected.
    Secretary McHugh. Well----
    Mr. Smith. And that is a big motivation for a lot of 
those--desire for bigger changes.
    Secretary McHugh. Could not agree more. And one of the 
things we have tried to do to respond to that is lift the 
convening authority in those kinds of cases to a higher level 
so that there is some space between the immediate commander and 
the alleged victim.
    One of the big problems I think we have throughout society, 
and it certainly exists in these----
    Mr. Smith. Absolutely.
    Secretary McHugh [continuing]. Circumstances is the victim 
fearing being victimized again by the system.
    Mr. Smith. And that is not peculiar.
    Secretary McHugh. And we----
    Mr. Smith. Not peculiar to the military by any means, I 
understand it is a problem in a lot settings.
    I thank you, gentlemen very much.
    Secretary McHugh. Thank you.
    Mr. Smith. And I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General Odierno, I want to ask about regionally aligned 
brigades. And in y'all's statement, you talk about that will be 
a feature of the Army in the future with investments and 
language skills, regional expertise, cultural training.
    My basic question is, how are you going to change the 
personnel system to make that work? Because if you put the 
investment in somebody to learn the language, et cetera, but 
then they rotate ever so often among different units that are 
aligned with different parts of the world, that initial 
investment isn't going to work. So explain the personnel 
changes that would be necessary for this.
    General Odierno. A couple of things, Congressman. Our 
studies and our analysis, as we looked at this over the last 
several years, tells us a couple of things. Although language 
is important, it is not the key piece. It is understanding 
culture. It is understanding the underlying social-economic 
factors that affect the countries they are involved with.
    So we are focusing on that with language. Now, I am not--
but the language would be a much lower level. And we have 
capabilities now where units are training on language that we 
are finding to be very effective as they go to Afghanistan. So 
what we will do is, we will align forces at division and core 
level be--habitual brigades will rotate. Because people rotate 
between brigades, as well. And we will--as they train up, they 
will train up through these social-economic cultural facets, 
and that will prepare them to be then aligned. We will continue 
to assess this over time to see if we think we have to have 
brigades habitually associated or can we rotate them. And part 
of this gets to the mix, frankly. Because we want to have a mix 
of brigades, and that mix might change over time based on the 
threats that we see in a Pacific area. So we might have to 
adjust them. And so, we have to be prepared to move them 
between regions as we go forward.
    So, I think, with the system we have in place, what we are 
doing in our schools, whether it be advanced course, basic 
course for officers, our NCO [non-commissioned officer] 
training courses, and then in the unit training, that will give 
them the basis and backbone for them to understand the socio-
economic and cultural issues associated. And we think we can do 
that within the training time we have allocated to do it.
    Mr. Thornberry. Well, I guess I still don't completely 
understand. And the issue has been brought up. Do you have 
enough time in the training to get into that deep culture? And 
I am very persuaded by General Flynn and others who argue that 
has really been the key in Afghanistan is understanding that 
culture is a prerequisites for success.
    But--just kind of on the basic level, currently, a soldier 
obviously could be in 1st Infantry Division, get transferred to 
82nd Airborne--they could be aligned with completely different 
regions of the world. So will that rotation end? And once you 
are assigned to a particular organization, you will stay there.
    General Odierno. It is hard to do that for a number of 
reasons. First is professional development and getting the 
right positions for the right people. And so, we have to be 
careful of saying that is how we are going to do this.
    We will try to do that as much as we can as we go forward. 
But we are not going to lock ourselves to this as we do today 
in Afghanistan. You know, you will have a 10-to 12-month train-
up period. Part of that will be doing a military skills. Part 
of that will be doing the culture and other training. We think 
that is enough time to get them to understand this.
    And as we do it time after time, that will increase their 
ability to understand this. And so, I think we can move people 
around. I don't want to commit to saying we are just going to 
lock people into certain regions.
    I also believe our young leaders want to be involved in 
more than one region. I think one of the--as we want to keep 
our best leaders, I think one of the real selling points to 
them is that they could potentially go to the Pacific this 
time. They could go to Middle East over here. That is exciting 
to them, to go and do different parts of the world. And I think 
within our training program, we can accommodate that where they 
are successful with the cultural and socio-economic 
understanding of the areas. And I think we can do that in our 
schools as we go forward.
    Mr. Thornberry. Well, I appreciate it. I think this is--as 
you know, in a variety of forums, there is a heightened 
controversy about the personnel system, especially the Army 
because the Army is kind of the leader of that. Our--books 
coming out, suggesting better alternatives in something.
    I think as we have tight budgets, figuring out reforms in 
the personnel system, as well as reforms----
    General Odierno. Yes.
    Mr. Thornberry [continuing]. In acquisition and so forth is 
that something we need to----
    General Odierno. I agree. And Congressman, I didn't give 
you any specifics. I will come back and do that. But I am going 
to release a leader development strategy here in about a month. 
And that it is going to touch on exactly what you are talking 
about, on how we are going to manage people differently. And 
part of gaining this expertise is the broadening assignments 
that we plan on giving them, which will help them to increase 
their expertise as well. And we will lay that out for you.
    [The information referred to can be found in the Appendix 
on page 109.]
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you.
    And thank you, gentlemen, for your service and commitment. 
I have two or three questions I want to try to get in.
    General, in the report, it says here that there will be 
reductions, as you have indicated, from 562,000 to 490,000 
soldiers. Recently, there was a public meeting at Fort Bragg to 
discuss the effect of these reductions throughout the Army.
    As you know, there is an extremely strong relationship--
supportive relationship in the community there between 
Fayetteville and Fort Bragg and the surrounding 11 counties 
that are impacted by Fort Bragg and the new forces command 
headquarters and Army Reserve command headquarters that have 
been built recently there.
    What are the guidelines that are being used for determining 
the number of soldiers that may stay at a particular location?
    General Odierno. Well, there is several things that we look 
at. We look at the infrastructure. We look at family programs. 
We look at how we spread them--we want to make sure we have our 
forces spread widely--distributed around the country.
    There are training facilities that are assessed. There is 
access for strategic deployment that is assessed. These are a 
few of them. There is more than that, but those are a few of 
the ones that we are looking at. And we can give you the 
detailed list of what those are.
    Mr. McIntyre. All right, and that is very helpful and very 
important. I know, for Fort Bragg. And speaking of that, also, 
as you know, JSOC [Joint Special Operations Command] is located 
at Fort Bragg. In the budget request this year, it includes 
continued growth for U.S. special operation forces, including 
U.S. Army Special Operations Command and Army special 
operations forces.
    How do you plan to manage the challenges that you see in 
the coming years as special forces grow, but we know there will 
be a reduction in conventional--the use of conventional forces 
and conventional budgets.
    General Odierno. So we have almost completed the growth of 
our operational--special operations forces. What we are now 
doing is, adding the enabler piece to support the special 
operations forces. And that is the increase that we will work 
over the next couple of years.
    As we have looked at this, obviously we recruit special 
operators out of the conventional force.
    Mr. McIntyre. Right.
    General Odierno. And so, we have done the analysis that we 
believe--at 490,000, there is--that gives us the right pool in 
order to continue to fill the special operations forces with 
the capabilities that they need. And we will have to 
continually assess that as we reduce the size--if we have to 
reduce the size of the conventional force below 490,000 and 
what the impact will be on our ability to provide the proper 
amount of special operations forces.
    Mr. McIntyre. All right, and then finally, what role--if 
you can expand a little bit on the role you see for the Army in 
this pivot to the Asia-Pacific region. I know you talked about, 
in the report, about the U.S. Pacific Command and making it a 
three-star headquarters for that. What would you say is the 
Army's role in the air-sea battle concept for that region?
    General Odierno. Well, first, Asia-Pacific is much bigger 
than air-sea battle. Air-sea battle is a operational technique. 
It is one of many. So it--as--first of all, as you gain access 
through air-sea battle, you gain access for reason, usually, to 
put ground forces on the ground. So we are working forced entry 
capabilities and how we contribute to that--looking, how we 
contribute air-missile defense capabilities through that in the 
Asia-Pacific.
    But in addition to that, I point out that seven out of the 
10 largest land armies in the world are in the Asia-Pacific. 
They major--in each one of the countries in the Pacific, the 
dominant Service is the Army. And so, we want to continue to 
engage, train, gain access through relationships to many of 
these countries, and build relationships. So it is important 
that the Army has the ability to do that in the Asia-Pacific 
region.
    And there is many other things we want to do with them, 
building humanitarian assistance disaster relief contributions, 
which enables us--and we--which would enable us to work 
together and build relationships. And I think we bring a lot of 
capability in that area. And we also have the Korean peninsula, 
obviously, that requires significant ground capability in order 
to reinforce what is going on in the Asia-Pacific.
    So we have 66,000 soldiers assigned to U.S. Army Pacific. 
And that is quite a significant number, and we will continue to 
support that number as we move forward.
    Mr. McIntyre. Thank you, very much. Having been with our 
soldiers in Korea and also seeing the Army's presence in the 
Pacific Command and Hawaii, it is amazing the great work you 
can continue to do. And we hope--want to support you in what 
you need to do as we pivot to that area.
    So thank you very much, and thank you for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And Mr. Secretary, it is good to see you again.
    General, great respect for you and all of our men and women 
in uniform who have served this Nation and are serving.
    Recently, and I want to pick up on a comment you made, 
General, that obviously, you probably--not you personally, but 
the Services are under probably the most enormous stress they 
have seen in years. The failure of Congress to balance the 
budget, so therefore you have got to help us do that. You have 
acknowledged that, certainly. The Secretary has been here 
before.
    I went over to Walter Reed a couple of weeks ago, and a 
young man from my district, Corporal Greg Hedrick, United 
States Army, lost a leg and fingers, and just impressed me so 
much that I am going to be thrilled to bring him over here and 
take him to lunch in the Members' dining room. I really cannot 
wait. His attitude is like all of them that I have ever met. No 
matter what they lost physically or mentally, they just have 
the greatest attitude.
    My concern is that I have Camp Lejeune down in the district 
I represent. I have one of the best staffers in America, Jason 
Lowry. We have dealt with so many cases, with Active Duty 
marines and also marines who are in the process of waiting for 
the medical review board before they can be discharged. And 
many times in that wait, they seem to self-medicate, which 
presents a problem.
    In the last 6 months--and I want to thank Secretary McHugh 
and his aide, Colonel Bowman, have been extremely helpful--we 
have had two cases that quite frankly, not from the district, 
but because of my staffer who has built somewhat of a national 
reputation of getting in there and trying to help, we have had 
a situation involving two.
    And I won't say any more than this, but two in the United 
States Army that were in that period of time. They served our 
Nation in Afghanistan and Iraq. They have done everything they 
could do. But waiting for that medical review board, they 
seemed to have gotten themselves into a situation that is not 
acceptable to the United States Army, or would be to the Marine 
Corps and Air Force, any of them. Now, I will get to the point 
I am trying to make, with hopefully a response from you and 
maybe even the Secretary of the Army. You mentioned--and one of 
my biggest passions, quite frankly, is those like yourselves 
who have done something I did not do--those who come back that 
are wounded, both physically and mentally.
    I would like to get your assessment of the wounded warrior 
program in the United States Army under the stress of this 
budget situation. And is it becoming more and more of a problem 
of those who are coming back from Afghanistan, primarily now, 
waiting to be discharged, but having to wait to a point that 
they seem to get themselves in trouble, even though they are 
still under doctors' care.
    I am not sure if I am asking that well enough, but you do 
understand what I am trying to ask. If I could get you to 
respond and the Secretary, please.
    General Odierno. So, one of the things that--we have a very 
strong wounded warrior program that is across all our 
installations. We have our warrior training brigades that are 
specifically set up to assist these soldiers as they are 
waiting. So as they leave Walter Reed or SAMMC [San Antonio 
Military Medical Center] down in San Antonio and go back to 
their installation, they are able to sign into these warrior 
brigades which track them on a quite regular basis through this 
process.
    But I will tell you, sir, your point is a good one, is 
that, you know, we are working hard to reduce this time that 
they have, this idle time. Now, we try to keep them busy, give 
them missions they can do. But we also want to speed up the 
processing time. We have made actually quite significant 
progress over the last year in reducing the times waiting on 
the evaluation boards.
    And in fact, we now have significant numbers waiting for 
now the final VA [Department of Veterans Affairs] adjudication 
because we have been able to get through our process. And in 
fact, the reason the number--our end-strength numbers are a bit 
lower than they were projected this year is because we were 
able to get more people through the system faster than we 
expected. So we are working this very hard.
    So we try to get them through the system faster, but we try 
to use these warrior transition brigades and battalions that 
are located to track these young men and women to make sure 
that they are getting the care they need and if necessary, 
behavioral health care, which has also increased over the last 
couple of years in terms of our ability to provide that 
capability at each one of our installations.
    So, we acknowledge the problem. We are trying to get after 
it by decreasing the period, by getting them in these warrior 
transition units, and then trying to get the behavioral health 
capability there to help them. We also started several years 
ago a pain reduction program, where we try to not use 
medication as much as we were before. And we are trying to come 
up with other methods that they can use instead of medication, 
so they don't run into this. So it is a combination of all 
those programs.
    We have not solved it yet, Congressman, and we have got to 
continue to work hard.
    Mr. Secretary.
    Secretary McHugh. Congressman Jones, first of all, I deeply 
appreciate the advocacy that you and your staff bring to these 
troubled soldiers in the Army's case. I signed a letter with 
respect to one of those cases to you last evening. Please 
review it and we can get back together if you choose to.
    Mr. Jones. Thank you.
    Secretary McHugh. This is a troubling issue for us, because 
for all of the problems that a man or woman in uniform has 
coming back with either physical or mental wounds, to add to it 
artificially by a bureaucratic process and creating more 
frustration is not what we want to do. We want to be a source 
of relief and help and recovery.
    As the chief noted, we have been working as an Army very, 
very diligently on the MEB [Medical Evaluation Board]/PEB 
[Physical Evaluation Board], the medical board and the physical 
evaluation board process, which is totally under Army control. 
The Secretary of Defense has set a 120-day target by which he 
wants all of those cases to process through. In our case, of 
course, the Army, for the last 4 months we have actually done 
better than that 120 days, down around 105 or so.
    So, we are doing much better. As the chief noted, we are 
clearing out backlogs. That is helpful to those soldiers who 
have been queued up, but it is also, frankly, helpful to the 
Army readiness ratings as well. But the problem continues, 
where the joint process of IDES [Integrated Disability 
Evaluation System] between the Department of Defense and all 
the Services and the VA. And as Secretary Hagel and Secretary 
Shinseki have said repeatedly, we are putting all resources in 
an effort against that, to try to get that out of the way as 
well.
    The other problem of the issue that you have raised is 
really that of medical and pharmaceutical abuse. We as an Army 
are doing much better amongst all of our soldiers, wounded and 
others, in terms of abuse of illegal drugs like marijuana and 
such, but prescription drug abuse is on the rise. And it lends 
itself into those medical care environments.
    And the challenge we face is not just controlling it in the 
WTBs [Warrior Transition Battalion] and while they are under 
direct medical care at places like Walter Reed, but rather 
after they have made some recovery and can go into communities 
and to pharmacies and procure it outside the medical system of 
the armed services.
    So, this is something we have to work on. We want to be 
very fair. And the point of the cases you have brought to me, 
that we are not victimizing someone again who is reacting in 
ways just trying to cope with the problems they have brought 
home with them. And I can't tell you we will get it perfectly 
right every time, but I can tell you we will try as hard as we 
can every time.
    Mr. Jones. Thank you, gentlemen.
    I thank the chairman.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General for the great work 
that you and the men and women you represent are doing for our 
country. Thank you very, very much.
    Secretary McHugh, welcome home. In your testimony, you made 
reference, I believe, to 2,300 soldiers not being able to get 
some intelligence training because of the sequestration. Could 
you tell us what that means in practical terms?
    Secretary McHugh. Well, as America has witnessed in recent 
weeks, intelligence processes, whether on the battlefield or in 
other settings, is very, very important. That is certainly true 
for the United States Army. Our ability to provide accurate and 
timely intelligence to our commanders and to our soldiers, 
whether they are in theater or some other environment, is very, 
very important.
    And we rely upon military intelligence specialists that 
receive, as you know from your time in this Congress, very 
specific training on methods, collection, et cetera. And those 
2,300 are the--is the estimate that we just won't be able--
seats we won't be able to fill.
    I wish that was the only example. I could tick off for you, 
and in fact the chief mentioned in his opening comments other 
seats we won't be able to fill like 500-plus seats at Fort 
Rucker in our Army Center of Excellence for Aviation, and on 
and on and on. And those are holes that, as I mentioned 
previously, are not just filled overnight. They will create 
gaps for years to come.
    Mr. Andrews. I want to thank the chairman and Mr. Smith for 
long before this sequestration became a reality, they were 
sounding the sentinel about what it would mean. This committee 
is not late to this process. But I would ask my colleagues to 
make a joint effort to get to the floor something that would 
end this problem.
    You know, General Odierno, Secretary McHugh, the people 
they represent, make decisions every single day. And we have 
obviated our responsibility to make decisions about this 
problem. It really boils down to a couple of basic questions.
    Do you think the sequestration should cover the military 
cuts we have seen? I think everybody here says no. Then you 
have to say: Well, should it cover cancer research at the NIH 
[National Institutes of Health] or kids enrolling in Head Start 
or air travelers across the country stuck in airports? I think 
we should pull the plug on the whole sequestration.
    The second question we have to ask ourselves is: Well, 
should we cancel it for the whole 10 years or just for a 
limited period of time? I think you have heard today we have to 
cancel it for the whole 10 years or you can't plan, you can't 
decide, you can't think.
    The third question we have got to confront is if we cancel 
it out for 10 years, how do we come up with deficit reduction 
money to take its place? It is pretty simple, ladies and 
gentlemen, that it can't all come out of discretionary. That is 
what got us to this mess.
    So people on our side have got to be honest about what they 
would do with Social Security and Medicare and other 
entitlements, and people on the other side have got to be 
honest about what they would do with revenue.
    We can do this. This is not some natural disaster or 
international threat that is upon us. This is a totally self-
imposed disaster.
    And I just think it requires us, on both sides, to be 
willing to stand up, make some decisions, take some votes that 
won't be particularly popular, but get it done.
    We have sat here, colleagues, for a year and a half, 
warning that these kind of things would happen. Well, they are 
now happening every single day.
    And, look, I give bipartisan credit for the fact the 
committee has worked on this problem. But I have to be specific 
and say that there is a one-sided problem here, that nothing is 
getting to the floor.
    We have been here since January 3rd in this Congress. We 
are voting on a helium bill this week. And we have not spent 
any time, not one debate, not one bill, not one vote, on ending 
this sequester.
    I don't think that anybody has got an obligation to choose 
my way of ending the sequester. Again, there are various 
variations how this could be done.
    But I think both of us, on both sides, have got to go to 
the leadership and say, ``put on the floor various proposals 
that would end this sequestration and let us do our job, make a 
decision and take a vote.''
    It is one more hearing today where we are hearing about the 
wreckage of sequestration. But it is also one more day when we 
are doing absolutely nothing about it. And I think we owe it to 
the men and women who General Odierno and Secretary McHugh lead 
to break that pattern, to do our jobs, to take some votes and 
make some decisions. I yield back.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Chairman, thank you.
    And just to clarify the record, we have not only had on the 
floor once, but twice, bills that would have taken 
sequestration off from the military that we passed and sent 
over to the Senate. The chairman----
    Mr. Andrews. Would my friend yield for just a moment?
    Mr. Forbes. I only have 5 minutes, and I just can't----
    Mr. Andrews. Okay. That was the last Congress, and I just--
--
    Mr. Forbes. Mr. Secretary and General, we--you have earned 
and deserve the respect of this committee and the country, and 
we offer you that today.
    And, Mr. Secretary, it is always great to just see you back 
here, and thank you for your service.
    General, it is also a pleasure to see you. And one of the 
things we want to do, as you had mentioned, to make informed 
decisions about the Army. We need to sometime just kind of feel 
the components back, and one of the things that we certainly 
agree with you on, I do, on sequestration, I voted against it, 
fought against it.
    We think it was a bad idea then, think it is a bad idea 
today.
    But I want to also come back to something the Secretary 
mentioned and pointed out I think very clearly. According to 
the HASC [House Armed Services Committee] committee staff, we--
the Administration has supported $778 billion of cuts to 
national defense, prior to sequestration, even before 
sequestration.
    If we look at the efficiencies that--you presided over many 
of them in cutting down the Joint Forces Command, and we have 
given the Department those charts and asked them to refute them 
if they were wrong. And so far they haven't been able to.
    But as for that $778 billion, which counts for the 106,000 
soldiers and civilian positions that were going to be cut down, 
it would be fair to say, I think, that you supported all of 
those cuts. Is that not correct?
    General Odierno. That is correct, Congressman.
    Mr. Forbes. And the Army, at least to my knowledge, 
submitted nothing to this committee for an unfunded 
requirements list. Why was that the case? Why not submit that 
list?
    General Odierno. Under last year's budget, we did not 
submit a unfunded requirements list. As I reviewed it, I felt 
that none of them raised to the level that we should ask for 
additional requirements last year.
    Mr. Forbes. Okay. And I hope you can just appreciate how 
some of us have a difficult time--the stress we are talking 
about in the Army didn't just pop up in the last few months. 
This has been over a series of years. Yet, we have these huge 
cuts and the Army basically saying this is okay and not giving 
us any of the unfunded requirements list.
    Let me ask you this question, though, going back to 
sequestration, it has raised the level of concern about the 
ability to maintain an Operational Reserve Component.
    The effects are already beginning to impact the equipping, 
maintaining, and training of Reserve units, which, of course, 
is a critical concern to the logistics community, due to the 
fact that nearly 80 percent of our current sustainment forces 
are comprised of Reserve Component units.
    Could you speak to this issue further and explain your 
perception of the impact these negative budgetary forces are 
having on the Army's sustainment forces?
    General Odierno. First, the initial impacts it is having is 
our ability to do reset, this year, in 2013. That has to do 
with the shortfall in OCO that is causing that, as well as the 
sequestration. So as we have to slow down reset, that will slow 
down the ability for us to return the combat service support 
assets to all three components.
    And so, as we look at their readiness and equipment on 
hand, it will take us a bit longer to get them the equipment 
they need to be prepared. And as we continue to go forward and 
continually have to push this to the right, the further that 
will get pushed to the right, so it will impact readiness 
actually of all three components, but specifically in CSSs 
[Combat Service Support], as you point out, the National Guard 
and U.S. Army Reserve.
    Mr. Forbes. And we have heard a number of people raise 
issues about your programmatic environmental assessment. And 
some concerns are that that is just a way of obviating a BRAC 
assessment.
    Can you tell us what inefficiencies will be created without 
using the BRAC process to reduce the force structure?
    General Odierno. Well, I think, first, you know, we are 
required to do the programmatic assessment, and we are required 
to do that by law, and that is what we have done.
    I think the reductions that we are taking, based on my 
understanding, do not reach the thresholds of BRAC. So we are 
able to do this. And that is why we have to do this 
environmental assessment, to make sure, in fact, it does not 
reach a threshold or problematic case that would cause us to go 
into BRAC-like situations, as we look at how we cut our force 
structure.
    But, that said, as we go forward with these cuts of 80,000, 
but even if we have to take more cuts based on sequestration, 
we are going to have to do a BRAC of some type.
    Because of the amount of soldiers coming out of all three 
components, it is going to require us to relook whether our 
infrastructure supports the force that we are going to have, 
once we are finished with these reductions.
    Mr. Forbes. Thank you.
    Secretary McHugh. And may I just add a word, Mr. Chairman?
    The Chairman. Mr. Secretary, would you please respond for 
the record? His time has expired.
    [The information referred to can be found in the Appendix 
on page 109.]
    Secretary McHugh. Of course. Thank you.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary McHugh and General Odierno, thank you for your 
testimony and for your service to our Nation.
    My first question is for either one of you, and has to do 
about maintaining the Army National Guard as well as the Army 
Reserve as an Operational Reserve.
    I am informed that the Army is substituting Active 
Component units for Reserve Component formations with many 
upcoming deployments. Now, I certainly appreciate the 
challenges that faces the Army, given sequestration, but these 
decisions have significant impact on unit readiness and the 
ARFORGEN [Army Force Generation] model.
    If this continues, where would the Reserve Component 
element fall in the ARFORGEN? Does the unit or individuals go 
back to beginning of the model and reset, or are they 
completely taken out of the model?
    If we are taking these units out, we risk relegating the 
Reserve Component back to a Strategic Reserve and not an 
Operational Reserve as is indicated in your statement.
    So can you comment on these points?
    Secretary.
    Secretary McHugh. Well, I will start and then the Chief can 
certainly fill in. Actually, what we are doing is, I believe, 
the cases you have raised are not substituting Reserve for 
Active, they are rather Active for Reserve. We just offramped 
two Indiana Guard units. And it was a decision that we came to 
with great angst. It is not something we want to do.
    However, it was a direct result of the economic and fiscal 
realities we are facing. That particular offramp saved the 
Army, the bottom-line budget, just over $80 million.
    And, as you noted, there unfortunately will probably be 
further offramping of R.C. [Reserve Component] Guard units, 
particularly into the future, although those decisions have not 
been finalized.
    We want to do those as sparingly as possible. Providing 
disruption to planned deployments brings great hardship and 
challenge to those citizen-soldiers, there is no question about 
it.
    But we have attempted to manage those as best we can. As 
has been noted in both the Chief and my other comments, we are 
doing some pretty dramatic things on the Active side as well. 
And the training means everybody goes back to square one. That 
is the challenge that I think we are facing.
    And cancellation of BCT training rotations at the national 
training center, it is not something that they go the following 
week or the next month. It is that they go back to the back of 
the line.
    And that is why we are very concerned about not having 
predictable, sufficient funding. That may be reduced funding, 
but at least predictable and timely funding, so that we can do 
less of those kinds of things, rather than more.
    We remain fully committed to an operationalized Reserve, 
and----
    Ms. Bordallo. Thank you.
    Mr. Secretary, I have limited time, and I have one more 
question.
    General, would you care----
    General Odierno. I was just going to say, this has nothing 
to do with taking the National Guard or U.S. Army Reserve out 
of the ARFORGEN process. This has to do with our fiscal year 
2013 budget disaster that we have, where we have a $7.8 billion 
shortfall in OCO, and sequestration, and we have to do 
everything we can to save money.
    And, unfortunately, one of the ways to save money was to 
substitute Active units for Reserve units, because it would 
cost us less money. And that is the only reason.
    We are committed to the ARFORGEN process and we remain 
committed to it with all components as we go forward.
    Ms. Bordallo. Very good. Thank you.
    Now, my second question, I guess maybe the general would be 
able to answer this. I am pleased with the Joint Chiefs' 
decision to deploy a THAAD missile defense battery to Guam to 
address the North Korean missile threat situation.
    It was encouraging, especially to my constituents, to have 
the added defense capability.
    I recognize there will be an evaluation of the THAAD 
deployment in about 90 days, but I wanted to learn more about 
the Army's effort to source the force structure and equipment 
for a more permanent land-based missile defense on Guam.
    The old EIS [Environmental Impact Statement] from 2009 
calls for a permanent THAAD and Patriot missile defense task 
force on Guam. So where is the Army in planning for the 
resourcing of the force structure for this task force?
    General Odierno. We are in the process of building five 
THAAD batteries.
    We have one built right now, the one that is deployed. The 
second one should be finished being built this--in the next 
couple of months. And then we will continue to build three 
more. So that will help us to develop a capability. So as we 
make decisions based on--in the joint staff, we will then have 
the structure to support the decisions that are made to 
operationally deploy these units forward. So that will help us.
    Now, currently today we have 60 percent of our Patriot 
batteries deployed around the world. And so we--it is very 
difficult for us to maintain that OPTEMPO [operational tempo]. 
There is no program now to increase the number of Patriots, but 
we are increasing our THAAD batteries, and we are building them 
as we go.
    Ms. Bordallo. Thank you, General.
    And I yield back, Mr. Chair.
    Mr. Forbes. [Presiding.] Gentleman from South Carolina, Mr. 
Wilson is, recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank both of you for being here. And 
Secretary McHugh, I want to assure you that Congresswoman Davis 
and I are maintaining the high standards of the military 
personnel subcommittee that you established----
    Secretary McHugh. I am sure you are exceeding it.
    Mr. Wilson. No, no, no. No hey--it was terrific on behalf 
of the service members, military families, and veterans. So 
thank you for your service.
    And General Odierno, I will always cherish my visit--the 
briefing you gave in Baghdad, which clearly indicated that 
the--our military forces were making such a difference in 
reducing violence in that country against the people of Iraq, 
against the military forces. It was just extraordinary to see a 
reduction of almost 90 percent from the height.
    So thank you for your extraordinary service.
    And indeed for both of you my faith in you is that I have 
three sons currently serving with the Army National Guard, my 
wife has trained them well. Roxanne gets the credit, but we are 
really proud of your service.
    With that, I am very concerned about the reduction in 
forces, General Odierno, and you were--indicated that there 
could be an additional reduction of 100,000 personnel.
    In light of what happened last week in Boston, I sincerely 
believe that we are in a global war on terrorism, facing 
international Islamic jihadists, we should be prepared. And you 
just indicated that we have the most unstable world in 37 years 
of your service.
    In light of that, how in the world is our country going to 
face the challenges ahead? We have currently planned 80,000 
reduction in personnel, and you now say there could be 100,000. 
How can we assure the American people that our military will be 
capable to respond?
    General Odierno. Congressman, I think first of all, the 
Secretary and I will ensure whatever forces we have no matter 
what the number is, we will ensure they are ready and prepared 
to go. And that is, that balance that we want to achieve.
    However, where it will be different is the type and number 
and size of the contingency we would be able to respond to. At 
490,000 we believe we can do one major contingency, and a one 
that is somewhat smaller than that around the world. If we go 
below that with another 100,000 it will put into question what 
size of one major contingency would we be able to do.
    And so that will be something we will have to continue to 
study as we reduce this--continue to reduce the size of the 
Army. So that is concerning about our ability to deter bad 
decisions if we get too small. And that is one of the things we 
are very concerned about as we look ahead to potential full 
sequestration.
    Mr. Wilson. And I share a concern of Ms. Bordallo, and that 
is the situation with the--our Guard/ Reserve Active forces. If 
there was an additional reduction of 100,000 personnel, how 
steeply would that affect our Guard and Reserve?
    General Odierno. Well, we would have to take a look at it 
and it depends on how many dollars we would have to get out. 
The--again these are--I don't want to pin myself down, but at 
least 50,000 of that--50,000 to 60,000 would come out of the 
Active Component, and then the rest of it would come out of a 
combination of the U.S. Army Reserve and National Guard. So you 
would see another significant reduction in the Active 
Component, and then a smaller reduction in the National Guard/
U.S. Army Reserve. And for me it is problematic on both sides 
that we take that reduction.
    I worry about having the readiness and crisis response 
capability we need in our Active Component, and I worry about 
the reduction and whittling away of the depth that we need in 
our Operational Reserve to support us across the variety of 
mission if we have to reduce our Army Reserve and National 
Guard.
    Mr. Wilson. And I am equally concerned about the domestic 
natural disasters that we need to be prepared for so that our 
Guard is prepared along working with our Governors.
    Secretary McHugh, can you please provide us with an update 
on the Army individual carbine replacement program?
    Secretary McHugh. Yes sir. As I believe you are aware, we 
have been conducting a dual track trying to do what is 
absolutely necessary based on input from Afghanistan to improve 
the product improvement, PIP [Product Improvement Program], 
program for the current M4 [carbine assault rifle], while at 
the same time trying to test amongst the various private sector 
competitors to determine whether or not we should purchase a 
new next-generation carbine to make sure that the technologies 
and the advancements would be worth the investment.
    We are kind of midstream in that activity. There has been 
some input recently out of the Department of Defense as to the 
Army's requirement or lack thereof, we are trying to go through 
those findings to make a determination. We have funding in both 
the budget and the Future Years Defense Plan to go forward 
should we decide to purchase a new individual carbine, but that 
decision is yet to be made.
    I would hope we would have some further updates on that 
certainly by the beginning of the summer.
    Mr. Wilson. Thank you very much, both of you.
    The Chairman. [Presiding.] Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    And thanks to both of you for your service and for your 
testimony today. Both of you are very much aware that the Army 
organic industrial base--our arsenals, depots, ammunition 
plants--really that is key to the Army's ability to respond, as 
you know, to a national security emergency, and make sure that 
our soldiers have the equipment that they need in the event of 
another contingency going forward.
    You also know I think, Secretary McHugh, that I am proud to 
represent two critical organic base facilities, not only the 
Rock Island Arsenal, but the Iowa Army Ammunition Plant also in 
the Burlington area, Middletown specifically.
    I think we have seen the importance of both these and other 
arsenals and depots over the course of the last decade. As a 
military parent. I am also glad that we have hardworking men 
and women at our arsenals, and at the depots and at the plants 
working every day to make sure that our troops have the 
equipment that they need, but I do share the concerns that both 
of you highlight in your joint testimony.
    And on page 16 specifically, and I quote, ``The current 
fiscal environment threatening the retention of critical skill 
sets in our depots, arsenals, and ammunition plants.''
    And of course I am very concerned about the proposed 
furloughs of the civilian workforce, including the furloughing 
of the working capital funded employees. I am worried that, 
that is going to further undermine the retention of our 
critical skills and our Army readiness.
    So, Secretary McHugh, if you could, what is the Army's 
specific plan to reverse the very concerns that you mention on 
page 16 of the joint testimony regarding the retention of 
critical skills and how does the 2014 budget support those 
efforts? And specifically, how will the Army ensure that the 
critical manufacturing capabilities that those facilities 
posses and the workforce needed for those facilities are 
preserved within the organic industrial base?
    Secretary McHugh. We are deeply concerned about this issue. 
And there is a challenge that is inescapable and that is you 
come out of two theaters of war and I think it is natural to 
assume you are just not going to have to buy and manufacturing 
the same levels of platforms and pieces of equipment that you 
did previously, but it is a challenge that is compounded by--as 
you noted--we comment upon in the posture statement as well as 
our opening remarks. The challenges of the current fiscal 
environment; $7.8 billion shortage in overseas contingency 
monies.
    We have to have the funding to get those products some $21 
billion worth of equipment that the Army wishes to return to 
our units back from Afghanistan back into the depots. back into 
the arsenals. Or have the products come out of the arsenals for 
a reset of that equipment. That is about--if you consider the 
transportation costs about $11 billion plus of work and 
expenditures that we would like to be able to make, but we have 
to have help on those OCO funding aspects.
    What we are trying to do programmatically is really at two 
levels. The first is work with the Department of Defense--I 
believe I have mentioned before what is called the S2T2 
[Sector-by-Sector, Tier-by-Tier], the sector-by-sector, tier-
by-tier analysis that the Department is leading that we are 
very active in trying to identify principally in the private 
sector, but also in the public sector and the military organic 
industrial base, where our failure points are, what kinds of 
inputs, where those highly skilled jobs are and how sensitive 
are they to throughput in terms of, you know, how many products 
are we moving through.
    That effort is about a year old. They began last May, in 
2012. They are now refining the data, and we expect those data 
to provide us very important information at least where we have 
to concentrate our resources and give us early red flags where 
necessary.
    The other thing is more Army-centric. We are looking at our 
organic industrial base in a single study. And that is being 
complemented by a study by AT Tierney, very, I think, well-
known prominent national firm that does industrial analysis, 
looking particularly at our ground combat fleet to again 
identify those especially single points of failure to give us 
the information so we can--whatever the resources we have what 
we can make those resource investments most wisely.
    Mr. Loebsack. Thank you, Mr. Secretary.
    And very quickly, and I think what I will do probably is 
submit another question for the record to General Odierno. Just 
to follow up on my colleagues here, Ms. Bordallo and Mr. 
Wilson, on the Guard and the Reserve. I have a lot of concerns 
about that moving forward, and particularly how the Army is 
leveraging the cost effectiveness of the Guard and Reserve, and 
how specifically the Army is maintaining--planning to maintain 
the Guard and Reserve as an Operational Reserve over the long 
term. But, thinking about it in terms of cost effectiveness.
    My time is run out. I will submit that for the record.
    Thanks to both of you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you both for being here.
    Mr. Secretary, thank you for your leadership.
    General Odierno, I have got a question for you that relates 
to the impacts of sequestration. Part of the problem that we 
have in trying to set aside sequestration is that, you know, 
the Department of Defense was restrained really by the 
Administration from giving us information about the effects 
because the Department of Defense was restrained from beginning 
planning. Until you began the process of implementing 
sequestration, no one was clear as to what the effects of 
sequestration would be. We could project. We could assume. We 
could try to imagine, but now that we are in the period of 
sequestration, you are actually putting pen to paper and able 
to give us an answer.
    And, I think, that is really something that we need to 
focus on, is what are the effects of sequestration so that 
hopefully we can come to a period where there is the grand 
bargain and the setting aside of sequestration, not just for 
its effects this year, but also in the future.
    We hear of, you know, FAA [Federal Aviation Administration] 
and plane delays, but when we get to the issue of national 
security, the effects are much more critical, because they go 
to our capabilities and certainly then as we look to the 
threats that we are facing.
    We had previously always had a national security strategy 
that required that we be able to be successful in two 
conflicts, being able to fight two wars. And that was, of 
course, because we knew that if we were engaged in one and we 
didn't have the capability to do two, that someone else might 
be, you know, interested in undertaking mischief while they 
believed that we were--incapable of responding.
    So the concept of always being able to respond to two has 
been one that has kept us as a standard, safe and understanding 
that our adversaries would know that we could respond.
    When the President and his strategic guidance has now begun 
to say that he has five major tenets, and one of those is that 
we would only be able to defeat a major adversary in one 
theater, conceding the two conflicts capability.
    Defense Secretary Leon Panetta, when he was at the 2012 
Munich Security Conference, in front of our major allies, said, 
``We will ensure that we can quickly confront and defeat 
aggression from any adversary anytime, any place. It is 
essential that we have the capability to deal with more than 
one adversary at a time. We believe we have shaped a force that 
will give us that capability.'' So a conflict between what 
Panetta is saying of our capability and what the President is 
now saying is our national strategy would be going down to one.
    My concern is, is that with sequestration that we can't 
even meet the President's goal of one. We had the Marine Corps 
in front of us that--Marine Corps--Commandant of the Marines, 
General Amos stated that if the budget drops that much, meaning 
sequestration goes into place, or about 10 percent more, then 
the number of Marine Corps infantry battalions would dip from 
planned 23 into the teens. As a result, the Marine Corps would 
be very, very strained to fight even one major combat 
operation. And, General, again, trying to get grapple with the 
effects of sequestration so that we can get this set aside. I 
understand that when Congressman Wilson was speaking to you, 
you were saying that the new budgetary numbers would have you 
dropping to an area, perhaps, around 490,000 soldiers and that 
that may be sufficient for one major combat operation.
    But looking at the effects of sequestration, if this is not 
set aside and we--and recognizing this is a 10-year program, my 
expectation would be that you would drop below a number even 
below that, and I would like your answer as to whether or not 
that would, as the Marine Corps has indicated, affect your 
ability to fight in even one major combat operation 
successfully.
    General Odierno. I think under the current strategy we 
have, we are able to defeat one and then deter another. I think 
that is the language we are using. And that is the capability 
we have today.
    If we go to full sequestration, we will--you know, we--2 
years ago, we were 45 brigades. We are going to go somewhere 
between 32 and 37 brigades here in the next--based on the 
initial cut--now, if we cut again in the Active Component, we 
will go down something less than that. And we would have 
significant issues meeting anything more than one contingency 
if we can meet one contingency.
    And then we would have to figure out how we are able to use 
our National Guard brigades much quicker than we can now. And 
that requires, not just the money investment, the issue with 
the National Guard is always time. Because they don't have the 
time to train because they are a part-time force. And so, it 
would be very difficult for us to meet anything above one 
contingency. And we would probably have difficulty meeting one 
contingency.
    Mr. Turner. I really appreciate that answer because 
although we always want to say that we have, you know, full and 
great strength against any adversary, and although we know our 
military would always rise to the challenge, recognizing that 
sequestration effect ties one of your hands behind your back. I 
appreciate you being honest and indicated that, yes, it would 
affect your ability to do one major combat operation.
    With that, thank you.
    The Chairman. Thank you. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Several of your comments when I was here--and my apologies 
for having to leave--but--dealt with the overseas contingency 
funds and the--as of this moment, we don't have the details on 
that. I think that is the case.
    General Odierno. I think we provided those. But we 
certainly can provide that to you.
    Mr. Garamendi. Okay.
    My question----
    Secretary McHugh. We haven't provided 2014----
    Mr. Garamendi. That is what I was----
    General Odierno. I am sorry.
    Mr. Garamendi. Going forward and also the way in which 
sequestration plays into it, and that is in the details. Given 
that, my question really goes to the issue of how is the--what 
money is available, how will it be spent? What are your 
shortfalls, some $7 billion just to return the equipment back 
to the United States. Could you go into that in a little more 
detail and when we might be able to have the details so that we 
can review it?
    Secretary McHugh. Well, I certainly will defer to the Chief 
for his comments. But the $7.8 billion in OCO shortfall that we 
both referenced are--with respect to this fiscal year, fiscal 
year 2013. And that is for virtually every aspect of the 
warfight. I mentioned that we have a redeployment and return 
and reset challenge of getting some $21 billion worth of 
equipment out of Afghanistan back to the depots for reset. That 
will cost through the end of 2014, the projected end of 
hostilities, along with second destination transportation and 
the reset costs themselves, about $11 billion. But that is not 
just tightly aligned with the $7.8 billion.
    The $7.8 billion is just to do the warfight for this year. 
And that is why we are challenged. The 2014 OCO budget is being 
formulated now. I expect it will be sent, of course, with the 
approval of OMB [Office of Management and Budget], the 
Administration by the Department, I would assume, fairly soon. 
And it will contain those details. But we are really more 
focused on this year because of the $7.8 billion deficit we are 
facing.
    Mr. Garamendi. I thought that the sequestration did not 
affect the OCO funding?
    Secretary McHugh. It doesn't. I mean, I am not talking 
about sequestration. That is another $7.6 billion the Army 
faces.
    Mr. Garamendi. And how is it that you came up short $7.8 
billion? What is the----
    Secretary McHugh. Well, we believe, as an Army, we started 
with a deficit going into the year. The other is, as you begin 
to reset, costs go up. And this has been a high burn-rate 
season. In other words, we are entering--we have had some tough 
fight, and there is always fudge factors. We are not so much 
concerned about not being 100-percent accurate. We are 
concerned about not having the funding stream to make up that 
deficit, which has not been the case in the past.
    Mr. Garamendi. I think--well, I am confused. I thought----
    General Odierno. If I----
    Mr. Garamendi. Yes?
    General Odierno [continuing]. If I could try, yes. So for 
this year, we didn't get quite what we asked for our OCO budget 
for 2013 initially because of the closure of the Pak [Pakistan] 
LOCs [Line of Control], it significantly increased the cost of 
moving equipment. Fuel costs have gone up. So all of these 
things have challenged us now that we have a $7.8 billion 
problem. And what--and in order to pay for that, we were taking 
out of our base budget.
    So because we have to take out of our base budgets--because 
we are never going to allow it to go unfunded in Afghanistan--
we now have to pay in our readiness of our units that are being 
prepared to deploy next or preparing for another contingency. 
And that is why it is causing us so much problem this year. And 
we will then--and then we will push it into 2014 as well 
because we have not been able to spend the dollars on our 
training that we thought was necessary.
    Mr. Garamendi. I assume that the detail that goes with your 
discussion here is available to the committee. And--look 
forward--if it is already here, then I look forward to reading 
it. If it is not here, I look forward to seeing it.
    Thank you very much--yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Secretary McHugh, 
General Odierno, thank you so much for joining us today, and 
thank you for what you are doing for our Nation.
    I wanted to drill down a little bit from Mr. Turner's 
question and some previous questions about where we are from a 
readiness standpoint. As you pointed out, the Army has arrived 
at about a 490,000 end-strength number in its reduction. I 
wanted to get your thoughts on what are the strategic risks 
associated with that as far as our posture and our ability to 
respond with a smaller force? And, as you heard, we live in a 
more dangerous world today, and, General Odierno, just as you 
point out.
    And what are the assumptions being made with that reduction 
in force? And, again, it goes back to the strategy. So what 
assumptions are being made with that? And I wanted to ask a 
perspective question.
    If you go back to September 10th, of 2001, can you give us 
your perspective on where we were at that particular point 
going in with where we were with force posture and with end 
strength, and how we were able to then pursue two wars on two 
different fronts. And did we have the proper training and 
readiness going in to 2001? So I just want to try--kind of get 
that perspective. Where are we today with this reduction? Where 
were we going into--to September 11th?
    General Odierno. So, Congressman, let me start with where 
we were going into September 11th. We were at about 482,000 in 
the Active Component, about the same as we are today in the 
National Guard and U.S. Army Reserve. We had high readiness 
rates. We would invested in our readiness so all our Active 
force was ready. We had not quite invested what we wanted to in 
our National Guards. They weren't quite at the right readiness 
levels that we needed them at that time.
    And so, we immediately consumed that readiness as we went 
into Iraq. And what happened is, as we opened up the Iraq and 
Afghan wars, and as they went on longer, we had to then grow 
the Army because the Army was not big enough to fight two major 
contingencies, which tells me that, at 480,000, we were not 
able--capable of actually doing two major contingencies. 
Because we had to grow the Army in order to do that. And we had 
to significantly depend on our National Guard to buy us time so 
we could grow the Active Component.
    So now, as we look ahead, the decisions behind going back 
now down to about the same level we were prior to 9/11, 490,000 
was that we are now out of Iraq. We are out of Afghanistan. The 
growth was because of the long-term stability operations that 
we are involved in with both Iraq and Afghanistan.
    Since we are no longer involved with those, it is--we 
thought it was moderate risk to reduce the size of the Active 
Component back to close to what it was between 9/11 and now. 
Although it is the same number, it is a different Army. It is 
one that I think is better organized, more special operations 
forces, more aviation, more capacity in our ground combat 
forces, more capability in our logistics structure. So I think 
it is a much better Army than it was in 2001.
    The problem now is we are not as ready now as were in 2001. 
We have now used our readiness. We have to buy back that 
readiness. And the problem we are having now is because we 
don't have the dollars, our readiness is starting to slip 
further. And I worry that we are going to move towards a more 
hollow Army because we don't have the dollars to sustain our 
readiness levels in order for us to respond to unknown 
contingencies.
    And that is the challenge that we face right now. And that 
is my concern.
    Mr. Wittman. Okay.
    Secretary McHugh, would you like to make a comment on that?
    Secretary McHugh. No, I think the Chief covered it very 
well. We feel that within the new strategy at 490,000, we have 
acceptable risk across the board. But clearly, our near-term 
challenge is that of readiness, based on the phenomena we have 
discussed here of having to use more and more money out of our 
base to fund the warfight, that has caused us to take out MTC 
[Mission Training Center] rotations, empty pilot training 
seats, et cetera, et cetera.
    And that is a particularly problematic thing in terms of 
our ability to immediately respond to some unforeseen threat.
    Mr. Wittman. Let me ask you as a follow-up to that, how 
will the utilization of these regionally aligned forces going 
forward allow you to meet the new strategic guidance? Where 
would the dollars come from for that? And is this construct 
viable under sequestration? And what is the Guard and the 
Reserve role in that?
    General Odierno. So as we have developed this regional 
aligned force concept, we are--we have this Army force 
generation concept where we go to reset, train, and available. 
So, you will go through a reset process. You will train up to a 
standard we think is necessary. And then you are available to 
be used against some combatant command. And both the Reserve 
Component and Active Component go through that.
    The Active Component has a 24-month cycle. The Reserve 
Component has a 60-month cycle that they go through. And so we 
will utilize those forces as they become available. We are 
funding that based on our base budget submission. We can fund 
that. And then there are funds that are available from the 
combatant commands and others to help us to provide support to 
them.
    We have to--we are just beginning this, so we will have to 
better work through the costs and the funding and do we have it 
right or now. But we will continue to make adjustments as we go 
forward.
    The most important thing that we get out of this is now 
combatant commanders know who the unit is. They can focus on 
that area. They can conduct operations for that on a more 
regular basis. And to me, it is a much more efficient use of 
our capability, both in the U.S. Army Reserves, National Guard, 
and the Active Component.
    Mr. Wittman. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    Thank you, Secretary McHugh and General Odierno, for your 
service.
    We had a listening session that the Army conducted in Fort 
Huachuca recently and I just want to thank you, first of all, 
for conducting these sessions. It allows you to assess the kind 
of support that the Army has from the civilian community. And I 
would say that it was a packed room and not one comment was 
anything but positive. We have a very supportive community, as 
you probably well know, in that--in Sierra Vista, which is 
adjoining or next to Fort Huachuca.
    General Odierno, I want to ask a question about Fort 
Huachuca and the capabilities that it has. As you know, it 
provides the Army and the joint force with a highly capable 
intelligence-gathering process and analysis and UAV [Unmanned 
Aerial Vehicle] pilot training. And I am very proud of the work 
that they do there.
    I would be interested in your thoughts as we look to the 
future of ISR [Intelligence, Surveillance, and Reconnaissance] 
as we draw down in Afghanistan. It is a capability that I know 
has been very valuable to our commanders in theater. In his 
testimony on the defense budget, General Dempsey noted that the 
growth and evolution of ISR has been a bedrock in our efforts 
to meet these challenges and threats. And over the course of 
the last decade, nearly every combatant commander has requested 
increased ISR assets, given the evolving nature of the 
conflict.
    You have spoken today, and we have been hearing questions 
regarding our ability to fight future wars. It looks like we 
might be down to one capability, hopefully no less. So, I would 
like to ask a question about how we can hold onto the ISR 
capability, given that we are drawing down, obviously, in 
Afghanistan? And how, given the current financial or fiscal 
constraints and challenges, how does the Army's budget going 
forward support the COCOM [Combatant Commander] requests and 
continue the work such as is being done at Fort Huachuca to 
help our commanders and our troops in theater?
    General Odierno. So, what is a little bit different is our 
unmanned aerial vehicle strategy is one that is built inside of 
our units that we have. So, for example, we have unmanned 
aerial vehicles in our battalions, in our Brigade Combat Teams, 
and we now have them within our division headquarters. So they 
are inherent in our organizations and our ISR support is used 
to support Army intelligence, Army reconnaissance, and we are 
now building manned/unmanned aviation brigades that will have a 
combination of armed aerial reconnaissance with unmanned aerial 
capability together.
    So, ours is absolutely essential to the future because we 
have built it as part of our strategy as to how we deploy our 
combat elements. And the UAV is central to that. So that will 
not change. And we will provide that with--internal to our 
organizations.
    The Air Force provides UAVs that are external to the 
organization, specifically to support combatant commanders. 
Ours comes with the units. So as we dedicate units to combatant 
commanders, the UAV capability comes with it and it is totally 
integrated into all our operations.
    So, it is critical to the future and the way ahead for us. 
And so, it continues to be very important for us to have the 
center out at Fort Huachuca, as well as working with our intel 
community out there as we continue to work and look ahead to 
how we want to increase our foundry program, which is a 
keystone of our intelligence collection program, to get--garner 
expertise across the different regions of the world as we move 
forward.
    Mr. Barber. Well, as you know, General, I hope we will be 
able to have you come out and take a look personally. It is an 
extraordinary facility, with capability that is second to none.
    I want to ask a second question. We may not have enough 
time, but I will submit it for the record. Going back to what 
Congressman Jones was talking about earlier in regard to how we 
are serving our men and women in uniform who come back from 
theater. I just will leave you with this story, which I hope is 
an anomaly, maybe more widespread.
    I was traveling back to Washington to Tucson, and I met a 
sergeant who was stationed at Fort Huachuca. He told me this 
story. He came back from his third deployment in Iraq, 
obviously an extended deployment in each case. He had his 
physical and then he asked for some--an opportunity to talk 
about mental health issues. He was given 30 minutes with a 
psychologist who declared that he was fine. Nine months later, 
when he got to Fort Huachuca, or after he was at Fort Huachuca, 
he had a diagnosis of traumatic brain injury, post-traumatic 
stress disorder, and a hearing loss--none of which had been 
picked up in that initial medical exam. As I say, I hope this 
is an anomaly, but to me it is a very troubling story if it 
indicates a larger issue of catching these issues at the front 
end when they most seriously could be treated and helped.
    So if you could perhaps for the record respond to that, and 
what we are doing generally speaking.
    Thank you so much. I yield back.
    [The information referred to can be found in the Appendix 
on page 109.]
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service. Thank you for all 
that you have done for the country and for the Army, and the 
men and women that serve under you.
    We have talked in the past, Mr. Secretary and General, 
about I think of the Distributed Common Ground System, the 
Army's intelligence-gathering software product that is out 
there. I appreciated, General, that you sent the vice chief 
yesterday. We had a great talk with him about the Distributed 
Common Ground System.
    My question, though, comes--not really a question. I have 
got some information that 3rd ID [Infantry Division], contrary 
to what I have been told by the Army, still doesn't have the 
commercial off-the-shelf product that they are using in 
Afghanistan, back at Fort Stewart.
    In fact, I have it right in front of me that the G3 
directed a hold on the 3rd ID operational needs statement for 
Fort Stewart for the reach-back from Afghanistan, so they can 
train the people that are going to take their place there, and 
also use their analysts in CONUS [continental United States] 
helping them in Afghanistan. So, you still have units that are 
requesting the off-the-shelf product that are not getting it. 
That is number one.
    Number two, I can't wait, and I look forward to working 
with you, and like I talked with the vice chief yesterday, on a 
way forward to work out how we can leverage and use the 
innovation and the ingenuity that exists in the open market in 
places like Silicon Valley and the northeast, where you have 
great commercial products, you have really smart people doing 
things that the Army is doing.
    When the Army creates its own cloud--Google did their cloud 
a few years ago and it is fairly successful. DCGSs [Distributed 
Common Ground System] cloud isn't working yet, but it is soon 
to be there. Apple created a cloud a few years ago. It is 
working fantastically. That is what I use on my phone right 
now. You have a lot of products and a lot of commercial 
software out there, and in this time of extreme budget cuts--we 
have already spent almost $3 billion on DCGS. You asked for 
another, I think, $270 million this year. Life cycle costs 
going up--upwards towards $8 billion or $9 billion going into 
the future here on an internal DOD, in-the-Beltway, trying to 
recreate systems that already exist in real life and are used 
by big business every single day; that are used by the CIA 
[Central Intelligence Agency], the DEA [Drug Enforcement 
Agency], the FBI [Federal Bureau of Investigation], all the 
special operations forces. They use some of these off-the-shelf 
products.
    And I just look forward to working with you to fix this. 
Because what we want is the best for the warfighter in the most 
economic way possible, the most efficient and least 
bureaucratic way forward to get into the warfighter's hand what 
they need. And like I said, the 3rd ID still had their 
operational needs statement turned down.
    So, with that, Mr. Chairman, I yield back.
    Secretary McHugh. May we respond? I think I heard a 
question.
    The Chairman. Mr. Secretary.
    Secretary McHugh. Well, I don't want to respond if the 
gentleman is going to leave. Would you care to hear a brief 
response?
    Mr. Hunter. Mr. Secretary, we have been talking about this 
for about a year and a half. And this 20-day-old e-mail where 
the 3rd ID still doesn't have reach-back to the off-the-shelf 
system, we can talk all we want to. It is not going anywhere. 
So that is--I am happy to stay here and hear a response----
    General Odierno. First off, I object to this. I am tired of 
somebody telling me I don't care about our soldiers and we 
don't respond.
    Mr. Hunter. General----
    General Odierno. Everybody on my staff cares about it, and 
they do all they can to help. So if you want to bring up an 
anecdotal incident, let's sit down, talk about it, and we will 
give it a response.
    My guess, if I go back to my staff, we will tell you it in 
fact was responded to and they will tell you they don't need it 
or they said they have since not requested it and said they 
don't need it anymore.
    We have been going back and forth with this for months. And 
I am tired of the anecdotal----
    Mr. Hunter. You know, if you don't----
    General Odierno. Let me answer this.
    Mr. Hunter. You have a very powerful personality, but that 
doesn't refute the facts that you have gaps in the capability 
and the----
    General Odierno. We have more capability today in our 
intelligence than we have ever had. When I was a division 
commander in 2003, a company commander today with DCGS-A [DCGS-
Army] has 20 times the capability I had as a division commander 
in 2003.
    Our intel organization has moved forward greatly.
    Now, let me go back to the statistics. It is $10.2 billion 
over 30 years. That is the DCGS-A program. From 2005 to 2038.
    Let's be careful about the statistics here. Okay? So I want 
to have a conversation about this, and I want you to get 
briefed on DCGS-A. DCGS-A is much more than what we are talking 
about here. It is link analysis and visualization. It is a 
capability that allows us to link intelligence from the 
national level all the way down----
    Mr. Hunter. General, I am with you----
    General Odierno [continuing]. To the individual level.
    Mr. Hunter. I understand.
    General Odierno. And I could go to 30 places that tell me 
it is working tremendously.
    Is it perfect? No. Will we have iterative processes that 
can inject more technology? Absolutely.
    Mr. Hunter. General, I am sorry----
    General Odierno. And I want to work with you on that as we 
go forward.
    Mr. Hunter. If you don't let me say anything, we can't have 
a conversation.
    General Odierno. Well, you weren't going to let us say 
anything.
    Mr. Hunter. Well, you are right, but I have that 
prerogative when I am sitting up here.
    General Odierno. Well, I have a prerogative too, and that 
is to answer a question or an accusation when it is made.
    Mr. Hunter. Number one, I was not accusatory. Number two, 
there was no question made. With that I yield back the balance 
of my time again, Mr. Chairman.
    The Chairman. Gentlemen, I am aware of this problem that we 
have had. And the reason I wanted to let the general respond. 
We made progress, I thought, yesterday on this, and I want to 
have that meeting that we set up. And we will move forward on 
this.
    But I think that we will get this resolved, but I wanted to 
let the general respond.
    And you have both had your word on this now. And we will 
follow up with these meetings. We will get to the bottom of 
this.
    Thank you very much.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Mr. Secretary, I need you to help me to have a greater 
confidence in the commitment to maintaining the National Guard 
and Reserve operational forces.
    In your response to my colleague from Guam, the gentlelady 
from Guam, you said that, in fact, you were not substituting 
Active units for National Guard units in--but that you were 
offramping--in the short term, due to sequestration and the 
Budget Control Act, it is a short-term cost-savings measure.
    Yet, General Odierno's response, as well as that April 18th 
letter, actually says that we are substituting Active Duty 
forces for National Guard and Reserve forces.
    And are you going to--is this something that is happening 
solely under the Budget Control Act and sequestration, or is 
this a long-term plan to remove the Guard from traditional 
Guard missions, such as Kosovo, Sinai, Horn of Africa, as well 
as the offramping of the Indiana Guard units?
    Secretary McHugh. Yes. When the Guard--the two Indiana 
Guard units were offramped, they were replaced by Active. If I 
wasn't clear on that, I apologize. So to the extent that we are 
using in that one or two instances Active to replace Guard, it 
is true. But it was specific to the one rotation, or the 
upcoming rotation for those units into Afghanistan. And it was 
strictly a budgetary-driven, near-term decision that saved the 
United States Army over $80 million, which, frankly, we felt we 
could better expend.
    It was in no way intended to indicate a long-term process. 
It has nothing to do with any of the other assignments of 
either Active or Guard units to Kosovo or the Sinai, to the 
joint task force in Honduras, wherever, but rather a near-term 
budgetary reality.
    As we have said repeatedly, because of the fact that we 
don't have sufficient funds in our overseas contingency 
accounts, we have to deal with this $7.8 billion shortfall.
    We can't let those troops go into harm's way without 
everything they need. And that $80-plus million savings was 
just a requirement that had to be done.
    But we certainly hope this is a short-term challenge, and 
we are fully committed to the Operational Reserve.
    I would tell you, as we go down to 490 [490,000], with very 
few exceptions, virtually all of the cuts will come out of the 
Active Component, not the Reserve Component. So we have 
increased equipment on hand in both the Guard and Reserve to 
historic levels. If we have sufficient funding for reset, we 
will actually take those historic levels even higher.
    The Guard and Reserve has been an irreplaceable part of our 
operational force, and we not just want it in the future, we 
need it in the future.
    Ms. Duckworth. Thank you, Mr. Secretary.
    You have to understand my confusion here, because I agree 
with you and I support you in what you are saying about the 
short-term stressors that you are under. I just need to be 
reassured that there is a long-term commitment.
    In the discussion with the gentleman from Texas on a 
regionally aligned brigade, at no point, General, did you 
mention the work of the State partnership programs and the 
long-term relationships that are built, not just language, but 
joint training, mentoring, all of that, that these Guard units 
have been doing for over 20 years.
    And, in fact, the outgoing commander, Admiral Stavridis and 
General Ham of AFRICOM [Africa Command] command and European 
Command both said that the State partnership program is one of 
the best tools that they had in their arsenals.
    U.S. Pacific Command, PACOM, uses Hawaii National Guard on 
a regular basis because of the large percentage of Filipino and 
Asian members of those Guard units.
    So I hope that this is a short-term thing, but I am nervous 
that we are looking at a long-term trend to push the Guard and 
Reserve back into a Strategic Reserve.
    General Odierno. Sure, and I understand everybody's concern 
here, as we go through this large transition.
    I mean, you know, we went from a time of having almost 
300,000 soldiers deployed in 2005, and that is slowly coming 
down, so we have to adjust.
    And that is what we are trying to do, adjust over time.
    The state partnership program has been fully funded. It was 
fully funded last year, it is fully funded in this budget, it 
will continue to be fully funded.
    So, you know, I don't even consider that part of regional--
force because it is a funded program that we have that is 
separate for that, although it contributes greatly, as you just 
pointed out. It is a great program that will--in fact, we have 
actually asked the Guard to expand the program in the Pacific 
as we go forward, because we think it is such a program that 
brings us so much benefit as we execute it.
    So I would just say, as we go forward here, we are 
rebalancing--you know, offramping Active units too, by the way. 
You know, so everybody is being offramped because requirements 
are going down.
    And so, what we have to do is we are trying to rebalance 
how we do this best, using the skills of the Active and the 
Guard and Reserve.
    For us to be a great Army that we have proven over the last 
12 years, we have to have the right balance between the Active, 
Guard and Reserve. We need all three. They are all critically 
important to our success.
    And we are dedicated to making sure we keep that right 
balance as we go forward, both from a size perspective, from a 
investment perspective, and a use perspective.
    And these are just very difficult times right now, as we 
come out of this. And we are very transparent with the Guard 
and Army Reserve on how we do this. They are in every meeting 
with us. We talk very extensively about them.
    And I believe they understand where we are heading with 
this.
    Ms. Duckworth. Thank you.
    I just want to note that a recent report from the Reserve 
Forces Policy Board found that the life-cycle cost of a 
National Guardsman is less than one-third of his Active Duty 
counterpart, because you are not providing for such things as 
dependents' housing, schooling, health care, once they complete 
their rotation.
    I will be submitting a question for the record on the 
modernization of the Guard and Reserve forces, especially as an 
example the pushing to the right of the modernization of Black 
Hawk fleet and other military equipment as well.
    I yield back my time, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And, Mr. Secretary, General, thank you for your service to 
our country. And I certainly don't envy you in this very 
difficult fiscal environment that we are in.
    As you recall, I represent District 4 of Louisiana. Fort 
Polk is our Army base there, very important and vital to the 
Army.
    And, General Odierno, you made a--you gave a response, and 
I appreciate your response, in the Senate this week regarding 
colocation.
    And, as you recall, we have a BCT, as I understand it that 
is separate its main division. And so, we have, I guess two 
countervailing issues going on. One is that there is a value to 
the Army to colocate the BCTs, but at the same time to do so 
would create additional costs, whereas keeping that BCT at Fort 
Polk, we have a tremendous investment in MILCON [Military 
Construction] there, and in fact can actually, from my 
understanding from the environmental report, can actually 
accept 1,000 more soldiers than what we have today.
    Can you expand on this colocation, how important, how much 
weight you are going to put on that, versus all the additional 
costs we may run into?
    General Odierno. I think the question was colocation with 
division headquarters. And I think in our weighting, that is 
not part of the weighting criteria. We would align them to a 
division one way or another.
    What I would say, what I caveat that with, though, is one 
of the lessons we have learned over the last 10, 12 years, if 
we want training and readiness oversight from a higher 
headquarters, it is important that we have that available. It 
is not absolutely necessary it be colocated with them.
    And so that is not an overriding factor as we consider 
this.
    So as we look at the criteria, that is not one of the major 
criteria we look at. I guess I would just leave it there.
    Dr. Fleming. Okay, so if I understand you correctly, that 
is not even weighted. You are just saying it is a desirable 
factor, but not a strong factor in the decisionmaking then?
    Okay, great.
    And, Secretary McHugh, I think you are privy to recent 
hearings that we had in the Fort Polk area. You know, Fort Polk 
was where General Patton set up the original training 
facilities before World War II. And historically the people of 
that area have undergone tremendous sacrifice to ensure the 
success of Army.
    And even through the years, and even today, undergoing 
tremendous sacrifice, but they have done it with 110-percent 
commitment and love to the Army and to the U.S. military. And I 
think you saw evidence of this, people turning out in the 
streets with signs and in support. They are all in for the 
Army, sir, as you know.
    I would love to hear your response and what you observed.
    Secretary McHugh. Well, we like being where we are liked. 
And there is no question we are liked and more at Fort Polk and 
the broader Louisiana State. It is a great facility. I have 
been there. The training that it provides is world-class. It 
has opportunities for expansion, which, you know, I think will 
be an important part of the evaluation process as we go 
forward.
    So I just want to assure the good folks of the Fort Polk 
region that, you know, we are going to take their great 
support, not just at the public listening meeting, which I 
understand was almost historic in turn out, but also for their 
support over the years. And, as I said, we want to be--we like 
to be where we are liked.
    But we do have a military value analysis that we are 
required to go through in waiting and such. And as I commented 
earlier, you know, we want to provide that information to the 
committee so that you can see it. I am--we are in the process 
right now in part. We are still conducting the listening 
sessions, but in part, taking the comments from those meetings 
like at Fort Polk and making sure we are giving full and fair 
consideration to every reasonable input.
    Dr. Fleming. Well, thank you, Mr. Secretary. And, again, we 
know that it is the only Army base that is actively undergoing 
land acquisition, money that had been programmed years ago, 
ongoing MILCON, some that is already completed, some that is 
actually under construction. We are building a school--local 
community has a tremendous bond issue. They went out in order 
to rebuild a school that was out in the community, the public 
works, the infrastructure, all this we are gearing up, even 
highways to go to Alexandria where we have an airport that is--
a support facility for the Army.
    So, again, we just thank you for your consideration. Again, 
we are pumped up. We are all ready for whatever the Army asks 
us to do. We salute you.
    And thank you. I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman and to you, Mr. 
Secretary and General Odierno to your extraordinary service. I 
want to thank you for your stark testimony today because I 
think you--you brought in in better contrast the choices that 
we have before us and the way that we can really see the 
seriousness today of the majority and of the Congress is to 
move--to appoint conferees so we can actually deal with these 
choices before us. And that is something that, I think, we 
should be able to do as a result of this testimony today.
    I wanted to ask you--you commented earlier about this--the 
issues of sexual assault, and I appreciate that. And I think 
that we need to separate the convening authority from other 
lines of command. But I also think we have to recognize that, 
you know, what we have had isn't working. And so, we can try 
and address these issues in multiple ways, and I think there is 
a very, very serious application of that going on right now. 
And I greatly appreciate it.
    But I think we also have to question why it hasn't been 
effective in the past. And so, you know, looking at all those 
issues together, I hope we can come up with a much better way 
of approaching it.
    On the issue of suicide, I know how seriously you take this 
as well. The National Institute of Mental Health is joining 
with you, I believe, in a number of studies. And I think if you 
could speak to what you think will come out of that, that will 
be helpful to the Army.
    But I also know that, you know, we are relying on a lot of 
our civilian personnel to help us in working with the men and 
women of the Army and all of our Services. How do you see them 
also being affected by the sequestration? And is it making a 
difference in terms of the ability for us to really have an 
opportunity to see everybody who needs to be seen, whether they 
even initially volunteer or not, to try and have plans so that 
everybody has a chance to engage on the problems that they may 
be facing?
    Secretary McHugh. Great questions, Congresswoman. Let me 
start with the STARRS [Army Study To Assess Risk and Resilience 
in Servicemembers] program and the National Institute of Mental 
Health program. The chief and I were just briefed on the latest 
update. This was a 5-year longitudinal study. We are actually 
entering the last year of it now. And this is the point when 
all of the years and the--actually, millions of data input that 
has been gathered and collated and fed into the system begin to 
show us what we hope will be some positive ways forward.
    The most likely outcomes, and of course we are waiting for 
the final determination--the most likely outcomes will be tools 
by which we can identify earlier the types of people who need 
particular help, where we can direct commanders' attention to 
maybe just pay a little bit more attention to a particular 
soldier--not to harm or to label that soldier, but to really 
get ahead of the curve, left of the bang, as we say.
    And this scientist, the private sector scientists from the 
various institutes of higher learning that are working with the 
NIMH [National Institute of Mental Health] are all very, very 
excited about where this study and its analysis may ultimately 
take us. We are, as well. So we are still awaiting the final 
outcomes, but it is starting to take final shape.
    I am deeply concerned about sequestration and furloughs on 
our behavioral health professionals. For the first time in 
nearly 4 years that I have been Secretary, we have finally 
actually surpassed the assessed requirement for behavioral 
health specialists. Those numbers are absolutely critical to 
make sure that soldiers can get help in a timely fashion, that 
we have enough of a cadre to conduct the five touch points on 
behavioral health--pre-, during, post-deployments--that we feel 
are important.
    But, as it stands right now, those civilians will be 
subjected to the furlough requirements such as, they may be put 
into place. We have made a request that they be exempted, but 
that request has not been granted or refused to this point. But 
if we do have to furlough them, then we are furloughing some 
extremely important people. I am concerned about the impact of 
that.
    Mrs. Davis. Thank you.
    And, General Odierno, I believe you mentioned that you were 
putting together the study of paper about how to manage 
personnel differently? And so, I am looking forward to that. I 
hope that you will work with us, with Mr. Wilson and myself. 
And you certainly have a partner in the Secretary, having 
served on this--as subcommittee chair, as well. That could be 
very significant.
    Thank you.
    The Chairman. Thank you.
    Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman. Likewise, I want to 
thank both you, Mr. Secretary, and General for your service to 
our troops and our Nation, but I also want to thank the 
officers that are sitting behind you, and just as importantly 
if not more importantly, the specialists and staff sergeants 
sitting off to my left, your right, for their service.
    Yes, I don't necessarily share the concerns about moving 
the Reserve and Guard back to a strategic force. I think when 
you look at the fact that 85 percent of transportation assets, 
75 percent of medical assets, 70 percent of civil affairs and 
60 percent of info ops [Information Operations] residing COMPO 
[Component] 2 and 3 [Army National Guard and Army Reserve, 
respectively], ``Big Army'' isn't going to war without us.
    So my concern is not us reverting back to an operational 
force. My concern is, how we do we maintain COMPO 2 and 3 as an 
operational force? And so, we have built an incredible 
operational force based on over a decade of real-world 
experience and rotating into the field of battle, incredible 
training and expanded opportunities, primarily funded through 
OCO monies.
    And so, as we see a welcome drawdown in hostilities, a 
precipitous falloff in OCO money, obviously already short just 
this fiscal year, and the swap, no matter how short-term of 
A.C. [Active Component] units for R.C. units in some rotational 
deployments, how are we going to maintain that operational 
capability?
    So the Reserve fiscal year 2014--Army Reserve fiscal year 
2014 budget request is relatively flat. It is around the area 
of about $5 million increase. But yet, in a surge situation, 
the requirement for apportioned units within the first 60 days, 
precludes, really, predeployment training to achieve their T-2 
operational readiness and deploy.
    How are we going to mitigate the risk? That is my question. 
How do we mitigate the risk? And I know that while the ARFORGEN 
cycle is supposed to get them from their, you know, reset to 
training to their ready year, but having lived through the 
ARFORGEN cycle, it doesn't always work. So how are we going to 
mitigate the risk so that we maintain this incredible 
operational capability we built in compo two and three?
    General Odierno. Well, first, in the units that you 
outlined there is absolutely correct--the type of units that 
will be required to report quite quickly. And we have picked 
those units for a very specific reason because those are much 
easier to train and maintain capability for a number of reasons 
in the Guard and Reserve, because a lot of them, their normal 
jobs they have, equate very quickly to these jobs. And they 
require specific skills that aren't necessarily complex unit 
integration skills.
    So what we are doing is, we are ensuring that they have the 
money to train to the level necessary. We work with both the 
Chief of Army Reserve and the Chief of the Army National Guard 
to ensure that they have the funding necessary to keep them to 
the T-2 level, which is what we are aiming for.
    So as we build our budgets, we do that in the sense. When 
we run into more difficult problems, is when you talk about the 
Brigade Combat Teams, because it takes longer and more money to 
prepare them. So what we do, is we lead with our Active Brigade 
Combat Teams and then follow so we give the Reserve and the 
National Guard brigades more time to train.
    And so, that process, I think, is a successful one. And 
that is the one we want to continue to move forward with as we 
go. And I think the way we have this organized, that we believe 
we are able to fund them at a level that will allow them to 
sustain a T-2 as they rotate through this ARFORGEN process. And 
we are changing it. And we are reviewing it to make the 
ARFORGEN process more applicable to a more peacetime set or a 
set to respond to unknown contingencies. And so, we will work 
our way through that. As they have, say, flatlined the dollars 
for the Active--the Active Component has actually gone down. So 
we actually have invested more in them by keeping them on a 
flatline of capability where the money we are spending to train 
the Active Components have actually come down in this budget a 
little bit. That is one--and so, we--that is how we recognize 
the importance of trying to sustain a level of capability in 
the Reserve and National Guard in these areas.
    Dr. Heck. And I appreciate that, General. I really do. But 
I can tell you, being in the--from units that are in that Tier 
3 because of training, because we are supposedly able to go to 
war faster, i.e. medical units, you know, on the TDA [Table of 
Distributions and Allowances] side, my combat medics aren't 
medics in their day job. And with the increasing requirements 
to do all of the mandatory trainings on BTA [Battle Training 
Assembly] weekend, it leaves very little time to get them their 
medical training and maintain their skills. And with the 
drawdown on available AT [annual training] days because of 
budgets, even though it is a Tier 3, I still have concerns that 
when the balloon goes up my combat medics are going to be able 
to go out the door and meet that 60-day requirement.
    Just to put it on the record.
    Thank you again.
    I yield back, Mr. Chair.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Secretary, General, I am following up on what the Chair 
actually brought up and that is this balance--the rebalance to 
Asia-Pacific and how we are also going to maintain your 
commitment to partner in and around the Middle East.
    Now, having said that, on page 10 of your testimony, you 
also are talking about U.S. Army Pacific elevating to a four-
star general headquarters in 2013. And I just would like to 
say, thank you, because as you probably are very well aware, 
Senator Inouye--from Hawaii--always wanted a four-star general 
presence. And it was because irrespective of the air-and-sea 
comment earlier, general, it is because our allies in the 
Pacific, our Army and having the same level of command was 
something of respect for the senator.
    And having thanked you for that, my question, though, is, 
what do you expect by having a four-star general in the 
Pacific?
    How does that change your posture or what are we in Hawaii 
to expect from having a four-star general there?
    Secretary McHugh. I will start and then the Chief can fill 
in the operational realities a little bit better. And first of 
all, we deeply mourn and miss the good senator. He was a great 
American, obviously, going back to his sacrifices in World War 
II, was also a great supporter of all the men and women in 
uniform. And, you know, he gave us so much. So if this 
elevation honors him that is cherry on the cake. And so we miss 
him as I said.
    As you noted, Congresswoman, the main objective is to 
provide our relationships with our 21 of the 27 heads of 
military structure in the Pacific nations that our Army, the 
CHODs [Chief of Defense], the chairmen and the highest military 
officials an equal to talk to in the Army relationships. 
Everyone talks about land-sea battle, and there is a lot--or 
air-sea battle, and there is a lot of air and a lot of sea, but 
there is a lot of land as well.
    And one of the objectives of our strategy is not to have to 
go to war, not to have to encounter conflict, and we think the 
Army particularly plays an important role in those kinds of 
activities. We have 24 major engagements throughout the Pacific 
region. We, unlike some of the other Services, have not cut 
back on any of those engagements.
    And we think given the prevalence of Army forces throughout 
the Pacific we are going to have a very, as I said in my 
opening comments, the status as a linchpin in that Pacific--and 
I can tell you the PACOM commander, Admiral Locklear, is very 
excited about having Army units return from theater and having 
them available through our region aligned force and through our 
State partnership program. For example, Alaska and Mongolia--
Alaska National Guard.
    So, we think although it may not change and add a lot of 
buildings and a lot of staff at least in the beginning, you 
know, it is an important step symbolically to deal with other 
armies on an equal basis.
    Ms. Hanabusa. Thank you.
    General Odierno. Yes, I would just say we have done some 
reorganization as well. So 8th Army, which has been in Korea, 
now comes under the U.S. Army Pacific Commander, our forces in 
Japan. It is a broad responsibility. So we thought it was very 
important to have a four-star general in there and I just would 
reemphasize what the Secretary said, the importance of having a 
four-star general that can regularly meet and build 
relationships with our key allies and partners throughout the 
Asia-Pacific is incredibly important.
    So we are very happy about this, and on 2 July General 
Brooks will take over, and we are looking forward to that day.
    Ms. Hanabusa. Yes, thank you very much again.
    And--I--and you may have to respond in writing to the next 
question. You know, also as part of your written testimony on 
page 8 you talk about the future, and you talk about how the 
mission is going to be able to respond quickly. We have been 
discussing, really the efficiencies, because of the cut in the 
budget. So now, my question is, how are you going to prepare 
for really two major theaters, Asia-Pacific as well as the 
Middle East?
    And, do you believe that the training and-or the ability to 
be flexible which is paramount in all of your statements, are 
you going to be able to do that in two very distinct, and in my 
opinion, separate theaters?
    And I am going to be out of time, and so if we could, can 
we take that for the record?
    [The information referred to can be found in the Appendix 
on page 110.]
    Ms. Hanabusa. Thank you very much, and thank you again for 
the four-star position.
    The Chairman. Thank you.
    Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman.
    And to Mr. Secretary and General Odierno, thank you so much 
on behalf of my family for your service to our country and the 
sacrifices that both you and your family make.
    And General Odierno I just want to--my ``Thank You'' note 
is in the mail although I am seeing you before you have 
received it. Thank you so much for coming to Fort Rucker and 
spending time with our soldiers and their families. It really, 
really made a deep impression that you were willing to take the 
time, particularly in light of the fiscal uncertainties that we 
are facing right now to be with them. So it was a pleasure to 
see you in Alabama, and feel free to come back any time.
    I do want though based on your testimony both on February 
13 and in light of us attaching the appropriations bill to the 
Continuing Resolution and then some of the testimony today out 
Army aviation--Army-wide to get a better clarification about 
the impact that, that will have on Fort Rucker this year with 
their current student load.
    Army-wide we keep hearing this number 37,000 and 500, I 
just want to get clarification from you for the current student 
load at Rucker this year.
    General Odierno. Yes, it is going to affect about 500 less 
pilots coming through Fort Rucker this year than we originally 
had planned. So we will have to slow down the amount of 
training that goes on there.
    We have mitigated some--it was supposed to actually be 
higher. We were able to mitigate some of that, but we have had 
to slow that down. What we don't want to do is back--have them 
go there and sit there. So we will have to push that to next 
fiscal year. And so we are going to have to figure out ways to 
catch up, which is going to be very difficult over time.
    Mrs. Roby. But does that--just so I understand--does that 
mean that their student load for this year will be funded and 
you are going to push it off into the next year?
    General Odierno. There will be some reduction in this year 
of the student load.
    Mrs. Roby. But not as much as you initially----
    General Odierno. Yes, but it is still significant. I mean, 
it is still about 500 pilots short of what we originally 
planned.
    Mrs. Roby. Okay, well help me understand, because I guess 
this is where I am confused a little bit. I mean, our intent in 
attaching that Continuing Resolution was to give you the 
flexibility to prioritize and, you know, based on what we know 
in our current mission, training these combat aviators is 
definitely a priority and you and I have discussed this on many 
occasions.
    And so if you don't have the flexibility you need, what do 
we need to do to get you that flexibility?
    General Odierno. Well, what has happened is we have used 
all the authority we have. So DOD [Department of Defense] was 
given the ability to move $7.5 billion. So that is between all 
the Services. So our portion of that helped us a little bit, 
but it was not enough to allow us to transfer money in order to 
help and help to do all the training we had planned for this 
year. So we are still short about $12 billion in our own end 
funds.
    So in order to pay for Afghanistan, and to make up for 
sequestration we still had to make some changes and reductions 
in our training program, canceling CTC [Combat Training Center] 
rotations and reducing flying hours, and part of that is 
sending initial pilots through Rucker.
    Now, we hope to get it back up to full speed by next year 
again. That is the hope, and then try to catch up, but that 
will depend on what our budget looks like next year.
    Mrs. Roby. Okay, I just want to--and thank you for helping 
me with that. Yesterday, the Army Times reported that the Army 
is suspending the aviation branch transfer panels indefinitely.
    Can you just talk about what that means as it relates to 
readiness?
    General Odierno. Yes, I think it is for the rest of this 
year.
    So--again, we don't want to just send people--so a lot of 
these are ones who are going to be aviators and we don't want 
to just send them there without a seat. So we are delaying it 
is really what is going to happen. So we are not going to do it 
this year. We will--we should be able to implement it again 
next year where we will start moving them back into aviation if 
they want to go.
    Mrs. Roby. Okay----
    Secretary McHugh. Yes, could I just--could I add just--you 
asked, and thank you for asking, what you might do. Obviously 
to get the 2014 budget on time would be critical to help take a 
step back to normalcy in all our training. I have been to Fort 
Rucker as well and great facility. Obviously our Army Center of 
Aviation Excellence.
    The second thing is we will be sending--the Department will 
be sending a request over for additional reprogramming, more 
flexibility. So while that may not solve all our problems 
either, it would certainly be very, very helpful in allowing us 
not to take new money, not to add to the deficit or the budget, 
but rather to move money again and fill some of those gaps that 
the first passage of H.R. 113 just didn't take us far enough.
    Mrs. Roby. Okay, all right.
    Well thank you both again.
    And, Mr. Chairman, my time is expired.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you both for being here today.
    I appreciate, very much, your--all the work you are doing 
to help protect our soldiers and our country as we confront 
very challenging times across the globe and here at home with 
all the fiscal constraints that we have to deal with.
    I know you have heard this from a number of members, I just 
wanted to touch again upon the issue of sexual assault in the 
military. I appreciate very much the work the Army has done 
especially around the special victims units where really 
cutting-edge approach is being taken to how one investigates 
and moves forward with these crimes, and so I want to thank you 
for that.
    But, General Odierno, you also mentioned and I think 
Secretary McHugh too, that the Army is a profession that is 
built on the element of trust, and what I have learned as I 
have spoken with so many victims is that there is a break in 
that trust on a number of fronts.
    So when the crime occurs in the first place, it is a deep 
affront to the survivors of this. The second affront comes when 
the commander does not respond appropriately as survivors come 
forward. The third affront is when those who do come forward 
sustain professional retaliation, often end up leaving the 
service, a profession they sought out and hoped to spend their 
life in, or at least a good number of years, and find 
themselves leaving.
    And then the fourth affront is when the Uniform Code of 
Military Justice is not seen as dealing fairly with the process 
of moving forward.
    And then the final affront, really, is how the VA deals 
with this. We are all working on this. I don't really want to 
go into it anymore, but just to say I have realized it comes at 
us in a lot of different ways, and there are a lot of different 
efforts to deal with it, these different pieces of it.
    We have a lot of work to do, and I think, as you heard from 
our ranking member and others, that this is something we just 
need to stay on top of. And I look forward to continuing to 
work with you and the other Services as well.
    I also want to thank you, General Odierno, for last year 
coming to join an annual event that I host on Capitol Hill. It 
was a real honor for my constituents to hear from you. And I 
have heard back from them how much they appreciated your 
remarks and continue to appreciate your leadership.
    One of the items you raised in your speech, though, remains 
quite relevant to an issue we have today.
    I really continue to be impressed by the efforts that the 
Army is investing towards energy efficiency. The costs of our 
dependence on legacy energy sources are very real, and are 
quite broad.
    For example, the Army is still the largest facility energy 
consumer in the Federal Government, costing billions of dollars 
each year. Liquid fuel costs alone rose by $1 billion from 
fiscal year 2010 to 2011, in part because of the threats posed 
in the Khyber Pass, which necessitated a costly rerouting of 
resupply routes into Afghanistan.
    I have a question that really touches on a local base. I 
believe you are both aware of the important work that is being 
done at the base camp systems integration lab at Fort Devens in 
my native Massachusetts.
    I actually had an opportunity to visit and see how they are 
partnering with some Natick Soldier Systems, as things are 
developed at Natick, they are then tested out at Devens.
    The important work that is being done there is expected to 
reduce base camp fuel requirements by 20 percent or more, and 
water demands by up to 75 percent. It is really impressive to 
see what is being put in place.
    So this facility was established less than 2 years ago. 
Obviously performing very important work, which gets at the 
core of force protection and fiscal imperatives, as we strive 
to attain greater energy efficiency.
    I have a simple question: If--can I count on your 
continuing support for these kinds of vital efforts in a time 
of fiscal austerity, given the cost savings that are generated 
as a result of them?
    General Odierno. You can. And it is not just cost savings 
that is important, as important as that is. And I have been to 
Natick as well. It is just amazing work.
    But it is also soldier's lives. The less power we have to 
transport into a theater, the fewer times we have to mount a 
convoy to bring water and fuel around, those are saved American 
lives.
    And so, we view it from both an economic but as well as a 
soldier-safety perspective, and we think it just makes good 
fiscal as well as good administrative sense.
    Ms. Tsongas. And you lead the way for the country in a lot 
of different ways, in terms of just the kinds of things you 
develop as a result of this investment.
    General Odierno. We like doing that too. Absolutely.
    Ms. Tsongas. Thank you. Thank you for your testimony.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I certainly want to thank the Secretary and the general 
for taking so much time out of their day to be here. We 
appreciate it.
    And, General, I really want to thank you for your service 
and for your leadership. I will tell you that my sons and their 
units refer to you as ``General O,'' with great respect and 
honor.
    So saying that--and I have three sons that currently serve, 
two Active Duty and one in the Army National Guard as a pilot, 
just recently graduated last week from Fort Rucker.
    But I am concerned, obviously, as we reshape our Army, 
particularly as we have just fought, you know, an irregular 
warfare, and now we have challenges out there, obviously, on 
the regular side too.
    And as we have more emphasis placed on our SOF [Special 
Operations Forces] units, how is that going to affect our 
ability in general to respond to those issues, like South Korea 
versus North Korea?
    General Odierno. What we have done is--I am very pleased 
with the innovation we have shown in developing what we call 
our decisive action rotations and capability that we are going 
to develop in the future.
    We have developed a very complex scenario, both the JRTC 
[Joint Readiness Training Center] at Fort Polk and NTC 
[National Training Center], in California, that will outline 
what I think is the future environment, which will be a 
combination of counterinsurgency, irregular warfare, as well as 
combined arms high-end maneuver.
    We think that is the environment that we are going to be 
asked to deal with.
    So it is a complex scenario that will cause our leaders at 
all levels to deal with how they maneuver, how they conduct 
combined arms, but also have to do it in a environment that 
would require some stability operations and counterinsurgency 
work as well. And that is how we see the future.
    So we have developed our rotations in this way. So our home 
station training will start to get focused--as we get more 
units coming out of Afghanistan, our home station training will 
focus here. Then when they go to their training center 
rotations to be certified, they will be focused in these areas.
    And that will enable them to have the capability that is 
necessary to fight, whether it is in South Korea or somewhere 
in the Middle East or somewhere else around the world.
    Because we think it will be a very complex environment. And 
I am very pleased with how we develop these scenarios.
    We have done three or four of these rotations so far, and 
they have been very eye-opening for us, in terms of that we 
have to get back to some of our basic combined-arms skills, but 
also the complexity of the environment that the commander has 
got to operate in.
    So I think we have got that about right. We will continue 
to adjust it as we go. And that will be the basis of us 
developing this capability. That is why it is so disappointing 
for us that we had to cancel these rotations this year, because 
they were going to be the beginning of us rebuilding some of 
this capability that we think we are going to have in the 
future.
    And because we had to cancel these rotations, we have lost 
an opportunity to begin this adjustment and really regenerating 
our readiness.
    Mr. Nugent. Having a son that just returned from NTC about 
a month or so ago, you--I think it would be great for members 
of Congress to actually go there to see the training cycle, 
but, more importantly, our equipment.
    You know, after 10 years, 12 years of war, our equipment 
has obviously taken a beating. And I know that your position in 
regards to making sure--and both you and the Secretary--making 
sure that our kids have the equipment and the training 
necessary to survive any position that we put them in as a 
nation to defend this country, are we learning--and I 
appreciate what you just said about the combined arms aspect, 
because one of them is a field artillery unit, with the heavy 
brigade, with the 1st Infantry.
    But as we put our equipment through the paces, are we 
seeing that, you know, the effects of this lengthy, lengthy 
combat that we have involved in on our equipment, particularly 
the readiness of that equipment?
    General Odierno. That is why the reset is so important. 
Every piece of equipment that has been either in Iraq or 
Afghanistan is going through a complete reset program, which 
ensures that it is at the level necessary for us to take it 
forward and use it and modernize it.
    So I feel comfortable, as long as we are able to get all 
this equipment through this reset program.
    Mr. Nugent. Have we been able to do that?
    General Odierno. Up until now, we have. And so, the concern 
is that we have to delay that a bit, and that is why we need to 
have continued OCO funding about three years after we come out 
of Afghanistan, to ensure we can reset the final pieces of 
equipment that are coming out of Afghanistan.
    Mr. Nugent. Well, my time is just about to expire.
    And I once again want to thank both of you for your service 
and particularly to our Army. Thank you.
    The Chairman. Thank you.
    Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to ask either 
gentleman that is here today about the helicopters. One of the 
things that sort of spurred my interest in Army helicopters is 
reading more about how more when we went into Vietnam in 1965 
and I guess shortly after that you all introduced the Kiowa 
Warrior, and wanted to know about where that is at right now.
    I know there have been many extensions and planned 
replacements of the Comanche and the armed reconnaissance 
helicopters, and that some of them have been even delayed and 
canceled.
    I didn't know if you can just give me an update on the 
Army's modernization and upgrade plans for the Kiowa that is 
served really as the workhorse for the Army for quite some time 
now.
    Secretary McHugh. Yes, the Kiowa Warrior has been an 
amazing workhorse. And we are deeply fortunate to have had it 
to help our soldiers in theater.
    The fact of the matter is, though, it is a 40-plus year 
platform and it really is reaching the limits of its life 
extension capabilities.
    We are currently going through an analysis for 
consideration of the development of a new Armed Aerial Scout. 
We recently had a volunteer flight demonstration program, where 
I believe five manufacturers provided airframes which Army 
pilots tested to try to see if the capability extensions were 
extant in those platforms, so that, you know, we could take the 
next step in the development of a new Armed Aerial Scout.
    The early assessments on that volunteer flight 
demonstration was that, you know, insufficient and 
generational-type progress was just not there in those frames.
    So in the interim, as we continue to pursue the potential 
paths for the development of an AAS [Armed Aerial Scout], we 
are going through a continued upgrade, called a CASUP [Cockpit 
and Sensor Upgrade Program], the cockpit and instrumentation 
upgrades for the Kiowa. That will bring it really to pretty 
much the life extension of its usefulness.
    But we will keep it relevant to the fight into the 2030s, 
but we continue to be very interested in developing that next 
Armed Aerial Scout platform.
    Mr. Veasey. Thank you.
    General Odierno. If I could just add, we learned at the end 
of--as we used in Afghanistan, very successful, but we are 
starting to see some of the limitations that we have with the 
Kiowa in terms of power, in terms of its digital capability, 
which is what the Secretary just talked about, in terms of 
upgrading the cockpit.
    So the decision we are going to have to make here is do we 
think technology is far enough along that it can really provide 
us a generational change in the Kiowa or do we have to reinvest 
in the Kiowa and wait for the technology that can result as a 
generational change in the Armed Aerial Scout?
    And that is the decision we are going to have to make here 
pretty soon, as we go forward.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Odierno and Secretary McHugh, thank you so much, 
both of you, for your service to our country.
    My first question--well, a statement, and that is that I 
hope you continue the practice of keeping our wounded warriors 
on Active Duty for their rehabilitation. I think that is a very 
significant change. My father was a career soldier. I was in 
the Army. And I volunteered as a teenager during the Vietnam 
War in an Army hospital.
    And it--the morale was bad. Once they were stabilized 
there, they were sent to the VA facilities. And unfortunately, 
they were often substandard, and felt that they were abandoned 
by the Army. And I think now when I go to Bethesda and I meet 
with our wounded warriors, and I am glad to say also that the 
casualty rate is down. But the--in terms of rehabilitation, the 
numbers are still strong, but they are receiving great care.
    And I am a subcommittee chairman in Veterans' Affairs and I 
clearly want to improve the quality of the care there. But it 
is not where it is where I am confident that they are going to 
get the same quality of care that they do right now at Bethesda 
and other facilities across this country. So, obviously, I want 
to see you continue that particular policy.
    The second issue is that the base realignment closure 
commission--I wondered if you could tell me what you think the 
savings are to that; if you feel that we have surplus capacity 
in terms of facilities inside the continental United States. I 
wondered if you could answer that?
    Secretary McHugh. Well, we have not done any current 
analysis, and previous NDAAs [National Defense Authorization 
Act] have precluded us from using funds to do that. And, you 
know, we have respected that. But if you go back to the last 
known assessment of excess capacity in the Army, I believe it 
is 2004, it shows us to have about 20-percent excess capacity.
    I think it is fair to assume in those ensuing 8-plus years 
that that excess capacity has grown. And it is certainly from 
our view going to grow even more as we come down to 490,000 end 
strength within the Active Component. So, I think the judgment 
that we have is that, believe me, having sat through three BRAC 
rounds on this committee for 17 years, not something that is 
easy to do, but in these particularly challenging times, it is 
important for us to the next BRAC round--this budget asks for 
one in 2015--earlier, rather than later so we can begin to 
receive savings as quickly as possible. But that is pretty much 
where we are at this moment.
    Mr. Coffman. Okay. Well, my last issue is--concerns that 
fact that we are inevitably shifting our Guard and Reserve from 
an Operational to a Strategic Reserve. I think that will simply 
happen over time. We have drawn down in Iraq. We are drawing 
down in Afghanistan.
    And my concern--I served in both the Army and the Marine 
Corps and their respective Reserve Components--as that--as time 
elapses, that the readiness declines in the Guard and Reserve. 
And it may take--we may need to rethink the model that we have 
for the Guard and Reserve right now in terms of training 
requirements. Instead of going back--if we go back to that 2 
weeks a year or one weekend a month, that may not do it.
    And so--and I look back at the First Gulf War where we had 
units reporting in in the Guard and the Reserve that were not 
ready to be deployed. And we can never be in that situation 
again. I think that they are at a razor's edge right now in 
terms of capability, given all the deployments in Iraq and 
Afghanistan, but I am worried that we may lose that over time.
    And maybe, General Odierno, I am wondering if you could 
address that?
    General Odierno. Well, Congressman, unfortunately, I mean, 
I agree with everything you have said. And it is going to 
degrade to some extent. There is no way that we can keep it at 
the level that it is been just because of the number of 
deployments. But we have got to come up with ways to do it 
better than we did before.
    And I think we have to look at different ways. Maybe there 
are different ways to look at how we divide up that 39 days a 
year that they have available for them to train. And so we will 
work with the National Guard to take a look at that, because we 
have to figure this out. And we are trying to do it through 
this Army force generation process. During certain times, we 
will increase the number of days for certain years. We are 
committed to that.
    I am not sure that is enough. So we will continue to work 
with the National Guard and U.S. Army Reserve to come up with 
unique ways to try to figure out how we best utilize those 39 
days. It is so hard within that short period of time to 
maintain the level of readiness. And we have just got to figure 
out how we best utilize and most efficiently utilize that time 
we are given.
    Because one thing I tell everybody, in the last 12 years we 
have proven why exactly we need a National Guard and U.S. Army 
Reserve. They are critical to everything that we do. This 
balance of Active, Guard, Reserve is critical to us as we move 
forward, and that will not change. And this is not about one or 
the other. It is about having that full range of capability 
that we need.
    So, we are committed to that and we have got to come up 
with the right solutions as we go forward. And we look forward 
to working with you on that as we go forward.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank both of you for your service. And I personally want 
to thank both of you for taking the time to come down to 
Anniston Army Depot.
    Mr. Secretary, I was glad I could work it out to be there 
with you when you came.
    And General, I am sorry I was up here tending to this 
business when you visited, but it was great for you all to do 
that. It means a lot to those folks when you come by and look 
at what great work they do.
    A couple of weeks ago when the Secretary of Defense was 
here, I asked him about the furloughs, if they would apply to 
the Anniston Army Depot, given that the fund that pays for that 
work is fully funded. And they just--they didn't know at that 
time.
    Are you all any further along at knowing as to whether or 
not there are going to be furloughs at the depot?
    Secretary McHugh. To my knowledge, a final decision has not 
been made. Now, they are funded through a----
    Mr. Rogers. Working Capital Fund.
    Secretary McHugh. But the comptroller--OSD [Office of the 
Secretary of Defense] Comptroller Bob Hale has said that there 
is a requirement that that stay fully funded, so they are not 
sure right now how that would be assessed. If they have 
actually made a final determination, I am not aware of it as I 
sit here.
    General Odierno. Yes, I think there is a combination of 
both. You have some that are funded by Working Capital Fund. 
You have some that are funded by other means. So it is unclear 
yet what the status of working capital--we are still waiting on 
an interpretation of that, frankly. So I guess we can't give 
you a better answer than what they gave you.
    Mr. Rogers. If they were to have to experience furloughs, 
what would that do to your readiness?
    General Odierno. Well, it is going to decrease our 
equipment on-hand readiness because it is going to delay 
equipment getting sent back to the units. And so it is 
problematic for us.
    Mr. Rogers. Well, shifting gears, I have spoken to both of 
you all over the last couple of years about my support for the 
double v-hull Stryker and the work out there. And I am very 
proud that you all supported the procurement of a 3rd Brigade 
in your budget request.
    What about the balance of the Strykers that we have got? 
Are you looking at putting double v-hulls on them?
    General Odierno. I think initially we believe we have a 
requirement for three brigades. I think as we move forward, if 
we have the dollars and how we plan on using the Stryker in the 
future, we will certainly take a look at whether we want to do 
it across the entire fleet. It has proven to be pretty 
successful as we have used it in Afghanistan.
    Right now, we think our requirement is three, but we will 
always continue to assess that as we go forward. The Stryker is 
going to maintain itself as a pretty significant part of our 
capability as we go forward.
    Secretary McHugh. Could I?
    Mr. Rogers. Certainly.
    Secretary McHugh. Just to the effectiveness of the Stryker, 
and I came across these datapoints. We have had just about 
between 100 and 120 significant events in Afghanistan with a 
double v-hull Stryker. And the vast, vast, vast majority of 
soldiers have walked away safely because of the capabilities 
that upgrade has brought.
    So, it has been a tremendous success and it has been a real 
lifesaver for us.
    Mr. Rogers. I agree.
    Lastly, I want to talk to you about the Abrams tank. The 
powertrain has been identified by the Army as one of the 
critical upgrades required for the life-extension of the Abrams 
tank to 2045. Two years ago, Mr. Secretary, you testified that 
60 percent of the maintenance cost for the Abrams tank is 
related to the engine and transmission, and by improving that 
powertrain, the Army would achieve 17 percent improvement in 
fuel efficiency.
    In fiscal year 2012, this committee supported a $47.8 
million reprogramming request from the Army that adopted 
commercial base improvements to insert a new dual configurable 
compressor that would be integrated within the Total Engine 
Revitalization Program. The committee understands this upgrade 
provides the Army with $1.6 billion in maintenance and fuel 
savings, as well as will drive additional workload in the 
Anniston Army Depot.
    What is the funding status of this program for fiscal year 
2013 enacted budget and for the 2014 proposed budget?
    Secretary McHugh. The FEI [Fuel Efficiency Initiative] has 
not been funded in the 2014. And the current funds are, 
frankly, unexecutable against the original program because we 
are using it to pay off our funding shortages. That was a very 
hard decision. The comments I made for the record 2 years ago 
were actually correct, and this was a program we wanted to 
follow up, but we find it impossible under the current fiscal 
conditions.
    I will say with regard to Anniston in the PB [President's 
Budget] 2014, we have got just under $8 million for part of the 
Tiger program, the engine upgrades that will be done at 
Anniston, and about $178 million total in modernization. So we 
are not abandoning Anniston in terms of the Abrams, but the FEI 
program looks under some duress.
    Mr. Rogers. Okay. Thank you both for your service.
    I yield back.
    The Chairman. Thank you very much.
    That concludes the questioning.
    Thank you, again, gentlemen, for your service. Thank you 
for being here today.
    And that will conclude this session. This hearing is 
adjourned.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 25, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 25, 2013

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2014 National Defense Authorization

             Budget Request from the Department of the Army

                             April 25, 2013

    Good morning. The committee meets today to receive 
testimony on the President's Fiscal Year 2014 budget request 
for the Department of the Army. I am pleased to welcome 
Secretary John McHugh and General Ray Odierno. It's great to 
see you both again and thank you for your continued service. 
Our Nation is very fortunate to have you two leading our Army 
during these challenging times.
    I note that in your written testimony you state that 
``America's Army is the best-trained, best-equipped, and best-
led fighting force in the world, providing a credible and 
capable instrument of national power.'' I absolutely agree with 
you, but what we need your help with is understanding the risks 
associated with the Army's continued ability to meet the 
national security needs of this Nation, and the critical 
assumptions behind these risks.
    For example, we hope to learn more about the Army's plans 
to reduce the size of its force. With last year's budget 
request, based on the Budget Control Act, the Army announced 
that it would reduce end strength to 490,000 Active Duty 
soldiers, the minimum required to accomplish national security 
requirements. The drawdown would require the Army to go from 45 
Active Duty Brigade Combat Teams (BCTs) to 37. To date, of the 
8 BCTs that will be deactivated, we have been told that 2 of 
the 8 will be Armor BCTs. We have also been told that the Army 
plans on adding a 3rd maneuver battalion to each Active 
Component Armor and Infantry BCT. It is our understanding that 
as a result of adding a 3rd maneuver battalion, the total 
number of Active Component BCTs will go to some number below 37 
BCTs.
    However, it is a year later and we still do not know how 
many BCTs the Army plans on drawing down to or where the Army 
will take the BCTs from. Equally important, we do not know what 
types of BCTs the Army thinks it needs. This includes Armor, 
Infantry, and Stryker BCTs. I know that we are in difficult 
times and that hard choices must be made. I hope that your 
testimony today will highlight areas of greatest risk and help 
this committee and others in Congress make the right choices. 
Again, thank you both for your continued service to our Nation. 
I look forward to your
testimony.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2014 National Defense Authorization

             Budget Request from the Department of the Army

                             April 25, 2013

    Thank you, Mr. Chairman. I'd like to join you in welcoming 
Secretary McHugh and General Odierno.
    The President's budget proposal represents a responsible 
attempt to forge a grand bargain on the budget. The President 
proposed an ``all of the above'' deficit reduction strategy, 
dealing with revenues, entitlements, and discretionary 
spending, including defense spending, to deal with our fiscal 
problems. As a member who, with many others around here, has 
long supported a comprehensive, balanced approach, I am pleased 
that the President adopted this course of action. Everyone 
here, I am sure, hopes that a budget deal can be reached, 
eliminating the damaging effects of sequestration on critical 
national interests and, especially in the context of today's 
hearing, national security.
    Some on this committee have attacked the President's 
proposal to reduce the defense budget by roughly $119 billion 
between fiscal years 2017 and 2023. As we discuss potential 
solutions to our budgetary problems, it is important to keep a 
few things in mind. First, the proposed defense spending 
reductions would be far less painful than what the Department 
would absorb under sequestration. The President's budget would 
allow future Congresses and Administrations to determine where 
the cuts come from and how they would be implemented, rather 
than deal with indiscriminate cuts through sequestration. 
Moreover, the proposed $119 billion is roughly a quarter of the 
amount that would be sequestered from the defense budget 
through fiscal year 2021. Many on this committee voted for the 
Budget Control Act, which created sequestration, and this 
committee must play an active role in removing the 
indiscriminate cuts.
    The Continuing Resolution and then sequestration have 
caused and are causing real damage to the Army this year. So 
far this year, the Army has had to cancel seven training events 
at the National Training Center and the Joint National Training 
Center. These training events are vital to the effort to return 
the Army to full-spectrum combat capability after a decade of 
conducting counterinsurgency operations. I am sure our 
witnesses can highlight other cases. We need to be perfectly 
clear with ourselves and the American people; standing down 
these capabilities causes real damage to our readiness and will 
cost more to recreate in the future than it will save in the 
short term. We owe it to our brave men and women in uniform, 
our civilian Government workers, the American people, and 
ourselves to fix sequestration this year and reach a budget 
agreement.
    While I hope we can reach an agreement that provides 
stability for the U.S. budget in the future and in particular 
the defense budget, I don't think we can fool ourselves that 
the overall defense budget is going up. Under any scenario, we 
are not going to be spending as much on defense as was planned 
2 or 3 years ago. While some members of this committee like to 
talk about defense strategies unconstrained by resources, that 
option is off the table; the Budget Control Act, which many on 
this committee voted for, capped resources. Our challenge now 
is to make those hard choices, in strategy, in support costs, 
in shared sacrifices, that allow us to live within our means.
    We are all going to have to look broadly to save enough 
money and position ourselves for the future--we in Congress, in 
conjunction with our witnesses here, should be considering how 
to reduce bureaucracy, how to further reform acquisition 
processes, and where we can stop spending on legacy programs 
that provide little useful capability at high costs. The 
Department has asked to close excess infrastructure, and we 
should listen. We have gotten used to nearly unlimited 
resources to fight the wars of the last ten years, but that 
time is over. Funding cuts are painful, but they also provide 
the opportunity for us to set up the Army for the future and to 
bring some rationality to the defense budget.
    I look forward to working with the two witnesses here 
today, and with the other members of this Committee, on exactly 
these issues in the coming years.

[GRAPHIC] [TIFF OMITTED] T0767.001

[GRAPHIC] [TIFF OMITTED] T0767.002

[GRAPHIC] [TIFF OMITTED] T0767.003

[GRAPHIC] [TIFF OMITTED] T0767.004

[GRAPHIC] [TIFF OMITTED] T0767.005

[GRAPHIC] [TIFF OMITTED] T0767.006

[GRAPHIC] [TIFF OMITTED] T0767.007

[GRAPHIC] [TIFF OMITTED] T0767.008

[GRAPHIC] [TIFF OMITTED] T0767.009

[GRAPHIC] [TIFF OMITTED] T0767.010

[GRAPHIC] [TIFF OMITTED] T0767.011

[GRAPHIC] [TIFF OMITTED] T0767.012

[GRAPHIC] [TIFF OMITTED] T0767.013

[GRAPHIC] [TIFF OMITTED] T0767.014

[GRAPHIC] [TIFF OMITTED] T0767.015

[GRAPHIC] [TIFF OMITTED] T0767.016

[GRAPHIC] [TIFF OMITTED] T0767.017

[GRAPHIC] [TIFF OMITTED] T0767.018

[GRAPHIC] [TIFF OMITTED] T0767.019

[GRAPHIC] [TIFF OMITTED] T0767.020

[GRAPHIC] [TIFF OMITTED] T0767.021

[GRAPHIC] [TIFF OMITTED] T0767.022

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 25, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0767.023
    
    [GRAPHIC] [TIFF OMITTED] T0767.024
    
    [GRAPHIC] [TIFF OMITTED] T0767.025
    
    [GRAPHIC] [TIFF OMITTED] T0767.026
    
    [GRAPHIC] [TIFF OMITTED] T0767.027
    
    [GRAPHIC] [TIFF OMITTED] T0767.028
    
    [GRAPHIC] [TIFF OMITTED] T0767.029
    
    [GRAPHIC] [TIFF OMITTED] T0767.030
    
    [GRAPHIC] [TIFF OMITTED] T0767.031
    
    [GRAPHIC] [TIFF OMITTED] T0767.032
    
    [GRAPHIC] [TIFF OMITTED] T0767.033
    
    [GRAPHIC] [TIFF OMITTED] T0767.034
    
    [GRAPHIC] [TIFF OMITTED] T0767.035
    
    [GRAPHIC] [TIFF OMITTED] T0767.036
    
    [GRAPHIC] [TIFF OMITTED] T0767.037
    
    [GRAPHIC] [TIFF OMITTED] T0767.038
    
    [GRAPHIC] [TIFF OMITTED] T0767.039
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 25, 2013

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    General Odierno. Army Leader Development Strategy ensures broadly 
experienced leaders with a range of cultural and regional expertise:
    The Army's leader development strategy provides for enhancements to 
personnel management that capture and catalog more detailed knowledge 
of individual leader talent profiles, and enable a better match between 
those talents and emerging missions and regionally aligned 
requirements. This type of talent management is a systemic process that 
better accounts for the individual traits of an officer, non-
commissioned officer, or Army civilian--his or her experiences, 
aptitudes, and potential. The Army develops and employs well-rounded 
leaders based on proficiencies derived from operational experience, 
broadening assignments, higher civilian and professional military 
education, and demonstrated individual interests and acquired skills. 
The Army's re-structured professional development timelines provide a 
strong foundation in a specific basic branch military skill followed by 
periodic opportunities for a broader set of experiences in academic, 
joint, interagency, and multinational settings. By providing our 
leaders with this range of experiences, we enable them to rapidly 
acquire the socioeconomic and cultural nuances of specific areas of 
operations during mission-specific training for an assignment or 
deployment. This approach prepares leaders to exercise mission command 
doctrine effectively whether conducting unified land operations in 
complex and uncertain operational environments as part of a regionally 
aligned force, or supporting sustainment functions across the Army's 
generating force.
    Managing individual talent and cultivating expertise through 
experiential opportunities, advanced military education, advanced 
civilian fellowships or graduate degree programs, and cross-cultural 
developmental programs spanning a full career ensures that the Army 
builds leaders with the ability to adapt quickly to any regional focus 
as they are assigned at every level of responsibility. [See page 16.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES
    Secretary McHugh. When the Army force structure is reduced, we must 
lower our facility overhead, infrastructure and civilian support staff 
to ensure that our investments in equipment, training, and maintenance 
do not become distorted. Otherwise, we may be required to unnecessarily 
divert scarce resources away from readiness. As we move forward with 
such reductions, we hope to conduct a capacity analysis to determine 
the level of excess infrastructure created by these changes, which 
could support a future BRAC round. [See page 24.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BARBER

    General Odierno. During Operation Iraqi Freedom/Operation New Dawn, 
the DOD implemented and refined key screening policies to help identify 
medical concerns and ensure those returning home receive continued 
medical care for deployment-related conditions to include behavioral 
health, traumatic brain injury, and hearing-loss.
    In order to minimize stigma and to engage Soldiers early in the 
development of Behavioral Health concerns, the Army utilizes enhanced 
standardized person-to-person Behavioral Health screening at touch 
points synchronized with the Army Force Generation Cycle in accordance 
with National Defense Authorization Act of 2012. The Army conducts 
Behavioral Health screening for all Soldiers before deployment, while 
in theater, post deployment, at 4 to 6 months post deployment, and 
annually, regardless of deployment status, with the periodic health 
assessment. The results are recorded in the electronic health record, 
as well as in the military operational database.
    The Behavioral Health screening considers the Soldier's relevant 
health records related to previous deployment(s), life stressors, 
substance use, suicidal or homicidal ideation, and symptoms of Post 
Traumatic Stress Disorder (PTSD) and depression. Many factors influence 
the assessment: the differences in the way Soldiers report their 
symptoms over time to different providers; the evolution of symptoms 
over time due to the natural progression of the healthcare conditions; 
and differences in the way providers interpret the reported symptoms. 
Screening providers incorporate all available information and clinical 
judgment to make any indicated referrals for health services. Soldiers 
may request a Behavioral Health referral at any time during this 
process, and they may also decline a recommended Behavioral Health 
referral if there are no urgent safety concerns or occupational or 
performance problems that require a duty limitation.
    Many combat related behavioral health conditions may not manifest 
until several months post deployment, so it is common for Soldiers to 
present with few symptoms immediately post deployment. Regularly 
scheduled Post-Deployment Health Assessments (PDHA) at four to six 
months and Post Deployment Health Reassessments (PDHRAs) at 18 and 30 
months, with the additional exams required by NDAA 2010, provide 
opportunities to identify latent onset healthcare conditions.
    The PDHA mission is twofold: to document adverse occurrences and 
exposures (as stated in the DOD directive) and to identify and treat 
current deployment-related conditions. Although there is an extensive 
network of medical care in the deployed and non-deployed environments, 
the PDHA and the PDHRA are additional screening mechanisms to discuss 
health-related concerns.
    With respect to Traumatic Brain Injury (TBI), the DOD implemented a 
proactive screening policy in June 2010 ``Policy Guidance for 
management of concussion/Mild Traumatic Brain Injury (mTBI) in the 
Deployed Setting,'' which mandates a set of actions for any Service 
Member involved in potentially concussive events (such as being within 
50 meters of a blast, sustaining a direct blow to the head, being in a 
vehicle collision, etc.). DOD policy mandates a minimum 24-hour 
downtime, medical clearance before returning to duty, and a report of 
the event in an electronic system for any Service member involved in a 
potentially concussive event. Commanders may waive the minimum 24-hour 
downtime for safety and other battlefield considerations. The minimum 
recovery period is extended to 7 days following symptoms resolution for 
multiple concussions within the past 12 months. When Soldiers redeploy, 
medical providers have access to the data reported in the electronic 
system, so they know which Soldiers have been involved in potentially 
concussive events (regardless of whether the external force resulted in 
a concussion diagnosis). TBI screening questions were added to the PDHA 
in 2008.
    These same health assessments ask about blast exposure and 
traumatic brain injury and concussion to permit timely referral for 
evaluation and treatment at our TBI services at most of our 
installations. All of these conditions may present several months post 
deployment.
    Hearing loss should be captured during the post-deployment 
assessment. Hearing loss and ringing in the ears from exposure to high 
levels of noise are frequently identified upon return from combat 
deployments. All Soldiers receive a screening hearing evaluation at the 
time of their post-deployment medical processing to determine if their 
post-deployment hearing status is different than their pre-deployment 
status. If a change in hearing is identified, the Soldier is referred 
to an audiologist for a detailed diagnostic hearing evaluation, 
typically several weeks after the post-deployment hearing check. At 
installations, like Ft. Huachuca, where there is no audiologist on the 
installation, diagnostic hearing evaluations are referred to off-
installation network providers.
    All Soldiers may raise health concerns at any time, not just during 
their military health assessments. We are confident in the services we 
provide our returning Warfighters, and we are available to review the 
specific concerns of the Fort Huachuca Non-Commissioned Officer you 
referenced. [See page 36.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. HANABUSA

    General Odierno. As a foundation to the U.S. Defense Strategy to 
rebalance to the Asia-Pacific area of responsibility, the Army must 
maintain our global engagements and strong relationships with our Key 
Partners, while cultivating new relationships with nations that share 
our common values.
    Our defense efforts in the Middle East will continue to be aimed at 
countering violent extremists and destabilizing threats, as well as 
upholding our commitment to allies and partner states. Our Strategic 
Guidance highlights that the United States places a premium on U.S. and 
allied military presence in--and support of--partner nations in and 
around the Middle East. As we reset units withdrawn from Iraq and 
reduce force structure in Afghanistan, we will maintain both a presence 
on the ground in the Middle East and Brigade Combat Teams in our Global 
Response Force available to react to near-term conflicts there.
    Our rebalance to the Asia Pacific is part of a Whole-of-Government 
effort. The military Rebalance focuses on a regional alignment of 
forces that applies Army capabilities more efficiently to fulfill 
existing, funded requirements and contingency demand.
    Our most important focus area in the Pacific is building 
partnership capacity to preserve influence and access, an example of 
which is our expansive exercise program to include 24 large-scale 
exercises in FY14 involving 14 nations in the region. The level and 
specificity of this type of engagement is endangered by sequestration.
    Key to maintaining the Army's ability to respond to different 
regions of the world is the concept of Regionally Aligned Forces. All 
Army units train on their Mission Essential Task List (METL) for Full 
Spectrum Operations (i.e., offense, defense, counterinsurgency, 
stability operations, humanitarian assistance and civil support 
operations)--that are applicable to military operations in any region 
of the world--as they move through the progressive readiness cycle 
known as Army Force Generation (ARFORGEN). Concurrently, Regionally 
Aligned Forces will be trained on the social-economic and cultural 
aspects of the region to which they are aligned. If there is a sudden 
need to deploy forces to a specific region, the units that are aligned 
to that region, and are also in their available year for deployment, 
will be the first units that are deployed for that contingency. Other 
units that are not aligned to that region may also be deployed to 
support as needed. Additionally, ARFORGEN may be flexed to deploy units 
sooner (in order to meet an emergent requirement) or later (i.e., to 
allow for more region-specific training). [See page 46.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 25, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. Last March you both testified that you expected to make 
a decision on the armed scout program by either the end of FY12, or 
beginning of FY13. We know that all the analysis from last year's RFI 
and voluntary flight demonstration has been completed for several 
months. The delayed decision is negatively impacting industry as they 
continue to expend resources refining potential solutions.
    What steps are left for you to make an Armed Scout material 
decision and when can I expect an announcement on that decision? Is the 
decision delayed by budget and requirements considerations? If so, can 
the Army inform industry whether your analysis indicates the preferred 
course of action is to compete for a new platform?
    In March, we received a briefing that focused on the flight 
demonstration, but lacked any of the critical study data such as return 
on invest and cost benefit analysis. When can the Congress and industry 
expect to receive the complete briefing on this program?
    Secretary McHugh and General Odierno. The Army has not made a final 
decision regarding the armed scout. Results from the voluntary flight 
demonstration indicate that no aircraft exists today with integrated 
technologies necessary to satisfy AAS requirements. This needed 
technology integration and qualification effort will require 
significant cost, engineering and manufacturing development in order to 
meet threshold capabilities. These threshold capabilities would likely 
produce a scout platform whose performance is at best only commensurate 
with the performance of attack and cargo platforms currently in 
fielding. The goal is to have a defined way ahead by 3rd Qtr FY13. The 
business case analysis that includes the return on investment and cost 
benefit analysis is in progress but not yet completed. The Army is 
preparing an affordability assessment that will impact the business 
case analysis. Because the Army must establish budget assumptions prior 
to revising the affordability assessment, it would be premature to 
release results dealing with the business case or return on investment. 
The Army anticipates approving the business case analysis by 4th Qtr 
FY13.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. The JTRS HMS program is utilizing a dual 
manufacturing strategy which requires two qualified vendors to build 
identical open-architecture radios, using only Government-owned 
waveforms, during the initial stages of full-rate production. Since 
this strategy ensures that competition and flexibility are built into 
the HMS program, which maximizes the long-term affordability of the 
program and allows the Army to leverage the significant investment it 
has already made, does the Army plan to continue with this dual 
sourcing manufacturing strategy? If not, why?
    Secretary McHugh. The Army strategy is to conduct full and open 
competition among all potential industry vendors to award a full rate 
production contract using Government-provided performance 
specifications. Language in the 2013 National Defense Authorization Act 
(NDAA) directed the Army to conduct full and open competition among all 
industry providers. As a result, the Army revised the acquisition 
strategy from competing initial full-rate production between the two 
qualified vendors to opening it up to all of industry. The acquisition 
strategy and request for proposals to comply with the 2013 NDAA are 
currently under review in both the Department of the Army and 
Department of Defense.
    Mr. Loebsack. The FY 2014 budget request for JTRS HMS radios is 
significantly less than previous years requests for this program. Given 
the stated importance that the Army has placed on network 
modernization, what is the reasoning behind this budget request?
    Secretary McHugh. The Army made the decision to reduce the number 
of Capability Sets fielded in Fiscal Year 2014 and beyond due to 
budgetary constraints and availability of forces. The reduction in 
requested funding aligns with the Army's plan to field a minimum of 
four Capability Set Brigade Combat Teams per year.

    Mr. Loebsack. How will the Army leverage the unprecedented 
experience within the National Guard and Reserve as well as the cost 
effectiveness of the Reserve Components in determining the right force 
structure mix? What factors will be considered in determining the 
future force structure mix? How specifically will the Army maintain the 
Reserve Components as an Operational Reserve?
    Secretary McHugh and General Odierno. Prevailing in today's 
conflicts requires a Reserve Component that can serve in an operational 
capacity--available, trained, and equipped for predictable routine 
deployments. The Army will maintain the Reserve Components as an 
Operational Reserve in accordance with the 60-month Army Force 
Generation Model, through a structured progression of unit readiness 
over time to produce trained, ready, and cohesive units prepared for 
operational deployment in support of the combatant commander and other 
Army commitments worldwide. Additionally, Reserve Component units are 
resourced with additional training days to meet requisite readiness 
rates for units that have been allocated or apportioned. Active 
Component/Reserve Component Mix (AC/RC Mix) is determined through the 
two-phase Total Army Analysis (TAA) process to identify the correct mix 
of unit types to provide a balanced and affordable force. TAA results 
in a cost informed force, based on Department of Defense priorities, 
budgetary constraints, authorized end strength, and senior leader 
guidance. Generally, the Active Component possesses those capabilities 
best suited for: (1) unpredictable and frequent deployments; (2) 
rapidly responding to complex operational events; and, (3) dealing with 
unexpected contingencies. Generally, the Reserve Component possesses 
those capabilities best suited for: (1) dealing with predictable 
deployments; (2) providing Title 10 and Title 32 support to local, 
state, and federal authorities; and, (3) providing operation and 
strategic depth.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. I am concerned with the Army's request relating to 
unmanned systems, both on the procurement side and the research and 
development side. As you know, there have been more than 5,000 robots 
deployed to Iraq and Afghanistan since 2003, and by all accounts, these 
systems have protected soldiers and saved lives. While I understand 
that with the drawing down of action in these two countries, the need 
to send these systems may not be as great, but the Army budget request 
seems to reflect the idea that we will never need these systems again. 
I say this because of the drastic cuts and flatout elimination of many 
important aspects of military robotics. What is the Army's plan for 
investing in next-generation unmanned systems and for maintaining and 
enhancing the systems that have already been purchased?
    Secretary McHugh and General Odierno. The Army's plan for investing 
in next generation Unmanned Ground Systems (UGS) is to develop programs 
of record that address emerging requirements, leverage commercial 
technology, and improve cross-Service effectiveness and efficiency 
through commonality. Priorities for UGS include protecting the force, 
persistently monitoring the environment, lightening the Warfighter's 
physical and cognitive workloads, sustaining the force, and 
facilitating maneuver. The Army and Marine Corps are developing a joint 
requirement for the individual class of UGS, that seeks to provide a 
lighter, more capable, and less expensive individual transportable 
robot than the recently terminated Small Unmanned Ground Vehicle 
(SUGV). The Army also plans to invest in robotics applique that will 
facilitate semi-autonomous operation of ground vehicle platforms and 
provide Soldiers with increased standoff from threats.
    The Army's plan for maintaining and enhancing the systems that have 
already been purchased (over $730 million) includes retaining and 
resetting 2,700 of 5,100 fielded unmanned ground systems upon return 
from theater. These systems will serve as bridging solutions for 
training and contingencies until programs of record systems are 
developed and fielded. The Army will divest 2,400 robots that are no 
longer sustainable due to obsolescence.
    The Army's FY14 President's Budget request includes funding for 
unmanned ground systems, which include the Man Transportable Robotic 
System (MTRS) Increment II--a vehicle transportable robot; the Advanced 
Explosive Ordnance Disposal Robotic System (AEODRS)--an individual 
transportable Explosive Ordnance Disposal (EOD) robot; and the Route 
Clearance Interrogation System (RCIS)--a semi-autonomous applique 
capability that provides standoff while interrogating, classifying, and 
excavating deep buried explosive hazards.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI

    Mr. Garamendi. Last week, your office issued a memo to Members 
outlining a change in policy for National Guard and Reserve soldiers 
that proposed canceling FY14 deployments in historically Guard-led 
missions such as Kosovo, the Sinai, and the Horn of Africa. 1. We all 
know that deployments mean readiness and if they can't deploy, their 
readiness will atrophy. Given the recent Secretary of Defense's Reserve 
Forces Policy Board findings showing the Reserve Component costing one-
third that of the Active Component, please explain your reasoning, and 
provide me a detailed costed-out business case, for maintaining an 
Operational National Guard and Reserve while at the same time reducing 
their historical mission deployments.
    Secretary McHugh. The Budget Control Act of 2011 and a shortfall in 
Overseas Contingency Operations (OCO) funding, combined with the need 
to ensure the highest readiness of our forces deployed or preparing for 
deployment to Afghanistan, forward stationed in Korea, and the Global 
Response Force, are forcing the Army to make a number of necessary but 
undesirable decisions such as replacing select Reserve Component (RC) 
units with Active Component (AC) units. Moreover, as a result of our 
ongoing mission analysis, requirement changes and fiscal constraints, 
worldwide deployments for 57 AC units have been cancelled this fiscal 
year alone, while more are being considered in the future. 
Additionally, as Afghanistan transitions to its directed force 
management levels, the need to maintain operational flexibility will 
produce evolving decisions relative to both AC and RC units. These 
decisions will not be based on cost alone and cannot be determined with 
a typical business--case analysis. Along with cost we must also 
consider capabilities and requirements, which differ among the Active 
and Reserve components.
    Working closely with the Army National Guard and Army Reserve, the 
Army identified RC units that will be replaced by AC units to support 
operational requirements in Fiscal Year 2014. The Army views these 
measures as temporary and will continue to program RC units for 
employment where possible under 10 U.S.C. Sec. 12304(b) after this 
period of fiscal constraint passes. With respect to the missions in 
Kosovo, the Sinai, and Horn of Africia, we estimate we will save $84.8 
million by using AC forces.
    The Army requires all of its components in order to address its 
full range of missions and contingency responsibilities outlined in the 
defense strategic guidance and in accordance with Army Total Force 
policy. Cost, readiness, responsiveness, and availability are all 
essential components in the decision to employ an Army capability to 
meet a valid requirement. Generally, AC formations and select RC units 
are maintained at a high state of readiness to be available to respond 
to war plans and contingencies; most RC elements are available to 
respond quickly in the homeland, and select numbers of these RC units 
are managed in a progressive readiness model in support of pre-planned 
combatant command requirements.
    Mr. Garamendi. Secretary McHugh, in your testimony two days ago in 
front of the Senate Armed Services Committee you stated that ``because 
of the amount of deployments that the Reserve Component has had, their 
unemployment rate is very high.'' Where are you getting this 
information from and how are you calculating it? When I talk to my 
Adjutant General they say their biggest complaint is that there aren't 
enough planned deployments and that more would help our National 
Guardsmen at home as well as for their operational readiness. Can you 
please submit to me your analysis of why you feel deployments hinder 
our National Guard and Reserve soldiers?
    Secretary McHugh. The National Guard Bureau in 2012 reported the 
unemployment rate for the Army National Guard to be greater than 20 
percent, much higher than the national average. We must remember that 
the Reserve Component (RC) is comprised of citizen-soldiers and we need 
to ensure that we don't use them so often that that they cannot 
maintain a job. Many of these citizen-soldiers have lost or had to quit 
jobs and that is not what we want our RC to have to do, even as an 
Operational Reserve.
    So, we are working to assist the Reserve Components' civilian 
employers, by providing our RC Soldiers with predictable deployment 
cycle schedules.
    In addition, the Army, in concert with Department of Labor and 
Veterans' Affairs, has revamped the transition program to ensure 
Soldiers are ``employment ready'' as they leave Active Duty. We are 
partnering with trade groups to directly certify skill sets taught in 
the military translate into officially recognized employable skills.

    Mr. Garamendi. Why would you remove the Army National Guard from 
historically Guard-led missions in Kosovo, the Sinai, and the Horn of 
Africa, where trust and partnership has already been established? How 
do you justify your commitment to the Total Force Policy if you intend 
on restricting or eliminating the Army National Guard's rotation in 
overseas operations?
    Secretary McHugh and General Odierno. Due to the immediate budget 
shortfalls in FY13 and FY14 resulting from sequestration and cuts to 
Operational Contingency (OCO) and base funding, the Army had to make 
some tough choices. The total cost savings in pay and allowances for 
all-Active Component sourcing for these 3 missions is estimated at 
$84.8 million for FY13 and FY14 combined. Additionally, as Army forces 
draw down from Afghanistan there are sufficient Active Component forces 
to perform the missions in support of Kosovo, the Sinai and the Horn of 
Africa.
    While the National Guard has performed in an exemplary manner in 
the missions in support of Kosovo, the Sinai and the Horn of Africa, 
these missions have not always been sourced by the National Guard. The 
Army began using National Guard forces for these missions in 2003 to 
meet our global requirements. The historical record shows that for 
years the Multinational Observer Force (MFO) mission to Sinai was 
performed by 82nd Airborne Division. The Kosovo Force (KFOR) mission 
began as an Active Component mission then transitioned to the Reserve 
Components and recently has been split with \2/3\ of the requirements 
filled by Active Component units and \1/3\ filled by Reserve Component 
Units. The Horn of Africa mission began during the wars in Iraq and 
Afghanistan and has been primarily completed by Reserve Component 
forces.
    The Army will continue to ensure the highest possible readiness for 
Reserve Component Soldiers through the 5-year progressive readiness 
model. This model ensures that units achieve combat readiness (i.e., 
trained, manned and equipped) by the 5th year of their cycle. The units 
are staggered in the cycles so that the Army always has pool of ready 
and available Reserve Units to draw from. The 5-year cycle also 
provides the Soldiers (and their families and employers) with 
predictability in their deployments.
    Mr. Garamendi. With defense budgets shrinking, it's important to 
evaluate if our current Active Component and Reserve Component force 
mix is appropriate for future engagements. We should ask ourselves if 
we need a very large standing Army with our current defense shift 
toward PACOM or would a larger, ``pay-as-you-go'' flexible National 
Guard allow us to maintain capabilities and continue to meet every 
challenge. Has the Army discussed ways that the Army Guard could be 
used more to save money and maintain some of your capabilities, since 
they train and perform to the same standards, can perform any mission, 
and cost \1/3\ of an Active Army soldier? A recent report from the 
Reserve Forces Policy Board has concluded that the fully burdened life-
cycle cost of a National Guardsman is less than \1/3\ that of his 
Active Duty counterpart. Considering that once National Guardsmen have 
concluded their deployment tour and no longer incur expenses such as 
dependent housing, schooling, and health care, how do you see this as 
an effective long-term cost-savings measure for the Army?
    Secretary McHugh and General Odierno. The Army requires all of its 
components in order to address its full range of missions and 
contingency responsibilities outlined in the defense strategic guidance 
and in accordance with Army Total Force policy. Cost, readiness, 
responsiveness, capability, availability and our requirements are all 
essential components in the decision to employ an Army capability in 
support of the full range of national security needs. Generally, Active 
Component formations and select Reserve Component units are maintained 
at a high state of readiness to be available to respond to war plans 
and contingencies; most Reserve Component elements are available to 
respond in the homeland, and are managed in a progressive readiness 
model in support of pre-planned combatant command requirements.
    Understanding fully-burdened life cycle costs by component is an 
important factor in deciding the appropriate component for a mission, 
as is readiness, responsiveness, and availability. The Reserve Forces 
Policy Board estimate was limited in its scope in that it did not 
address institutional overhead such as schools, training facilities, 
maintenance, and transportation in preparation for an operational 
deployment. Additionally, the life cycle costs for Reserve Components 
increases as they are used in an Operational Reserve role and cost 
basically the same as the Active Component when mobilized.
    Mr. Garamendi. In your budget, you request $321M in MILCON funding 
for the Army National Guard, a significant reduction of almost 48% from 
FY13 funding. My understanding is that the justification is based on 
the Active Army's facility health, which has improved greatly over the 
last decade, and the assumption that the Guard is in similarly good 
shape. However, over 46% of Army Guard Readiness Centers are 50 years 
old and older, and many are not suitable to put soldiers in. The 
decrease in facility investment will lead to lasting negative impacts 
on the National Guard ability to effectively serving the Nation and 
communities during crises. Can you discuss how the Army came to these 
decisions to decrease much-needed MILCON funding for the ARNG over the 
next several years?
    Secretary McHugh and General Odierno. The Army remains committed to 
providing military construction (MILCON) funding to all components in 
support of their most urgent facility modernization and 
recapitalization requirements. Fiscal constraints resulting from the 
2011 Budget Control Act triggered funding reductions in Army investment 
accounts, including MILCON. In the face of these across-the-board 
reductions, the Army has established a funding allocation among the 
components that is proportional to the components footprint and to 
component's recapitalization and deficit requirements.
    The Budget Control Act across-the-board reductions resulted in a 
60% reduction to the Active Component MILCON funding for the FY13 and 
FY14 budget years as compared to funding levels in the FY12-16 
President's Budget Future years Defense Plan. By comparison, the 
National Guard received a 17% reduction in funding. Additionally, as 
compared to FY12-16 funding levels, the Active Component went from 82% 
of the total FY13 and FY14 MILCON funding to 68% while the National 
Guard increased from 12% to 21%.
    Mr. Garamendi. What are the details behind your discussion as to 
how you came up $7.8 billion short for war funding?
    Secretary McHugh and General Odierno. The Army has experienced 
higher Operation and Maintenance (OMA) Overseas Contingency Operations 
(OCO) costs than initially projected over the course of the fiscal 
year. These shortfalls initially approached nearly $10 billion and Army 
has worked diligently to reduce the shortfall, which currently stands 
at $8.3 billion. Continuous reviews with ARCENT update the status of 
requirements as the year progresses. The reason for the increase from 
$7.8 billion to $8.3 billion is primarily due to Strategic Lift 
requirements internal to the ARCENT Theater of Operations. Components 
of the unfunded requirements are:


----------------------------------------------------------------------------------------------------------------
                             Activity                                             Current UFR ($K)
----------------------------------------------------------------------------------------------------------------
LOGCAP                                                             $1,483,725
----------------------------------------------------------------------------------------------------------------
Stock Fund                                                         $1,607,835
----------------------------------------------------------------------------------------------------------------
Non-Stock Fund                                                     $1,498,000
----------------------------------------------------------------------------------------------------------------
In-Theater Maintenance (ITM)                                       $791,675
----------------------------------------------------------------------------------------------------------------
Subsistence for Civilians                                          $145,000
----------------------------------------------------------------------------------------------------------------
Premium Transportation                                             $234,000
----------------------------------------------------------------------------------------------------------------
TACSWACAA                                                          $200,558
----------------------------------------------------------------------------------------------------------------
160th Signal BDE                                                   $43,973
----------------------------------------------------------------------------------------------------------------
Second Destination Transportation                                  $1,385,920
----------------------------------------------------------------------------------------------------------------
                                    Subtotal                       $7,390,686
----------------------------------------------------------------------------------------------------------------
CLS ISR BA4 Capability Support                                     $285,500
----------------------------------------------------------------------------------------------------------------
                                    Subtotal                       $7,676,186
----------------------------------------------------------------------------------------------------------------
STRATLIFT                                                          $600,000
----------------------------------------------------------------------------------------------------------------
                            OMA OCO Total                          $8,276,186
----------------------------------------------------------------------------------------------------------------

                                                                As of: 
                6 May 2013

    Activity Details.

    a. Theater Operations. (LOGCAP, Stock Fund, Non-Stock Fund, In-
Theater Maintenance) Fuel, repair parts, and other supplies for units 
continue to be consumed at a high rate, in correlation with Active 
combat operations. While USFOR-A has closed a considerable number of 
FOBs and COBs; a significant number remains, including the large hubs 
in Kabul and Kandahar which account for the majority of the LOGCAP and 
local service contract costs.
    b. Subsistence and Premium Transportation. Army is responsible to 
fund subsistence and the transportation of subsistence items for all 
service members, DOD Civilians and Contract personnel in Theater. The 
number of civilians and contractors currently in Theater exceeds the 
projected PB13 level developed last year.
    c. Total Army Communications Southwest Asia, Central Asia 
(TACSWACAA)/160th Signal BDE In-Theater Support. These programs provide 
a robust strategic communications capability in the Central Command 
Area of Responsibility (AOR). 160th Signal BDE In-Theater Support 
provides all combat and combat support forces communication 
engineering/logistics/security support. TACSWACAA provides the tactical 
ability to perform C2, requisition of repair parts/supplies, and 
transportation operations in-theater. These programs rely on 
contractors to reduce the deployment (potentially a brigade-size 
element) of Signal Soldiers.
    d. Second Destination Transportation (SDT). While the PAK GLOC is 
open, it has yet to achieve its pre-closure rates. 20% of the export 
cargo shipped for the month of April flowed along the PAK GLOC. As it 
continues to mature, we anticipate approximately 55% of export cargo 
will move on it. The remaining export cargo will flow along the other 
three routes, the Northern Distribution Network (NDN), multimodal and 
direct air, which will balance the goals of cost avoidance and risk 
reduction by maintaining viable retrograde options. The PAK GLOC is 
fragile in terms of opening/closing due to political and military 
events. If it is closed again for some reason, or does not achieve the 
desired level of throughput the Army will have to increase its use of 
the other more expensive routes.
    e. Contract Logistics Support (CLS) ISR, PGSS/VADER. Persistent 
Ground Surveillance System (PGSS) is a stand-alone tethered aerostat 
well-suited for small to medium-sized sites. PGSS provides radar 
systems to cue aerostat payloads providing near real-time eyes on 
target. PGSS also provides a communications platform for EPLRS/
SINCGARS. Vehicle and Dismount Exploitation Radar (VADER) allows 
accurate Ground Moving Target Indicator (GMTI) data and Synthetic 
Aperture Radar (SAR) imagery readily available to ground commanders. 
The antenna is designed to support multiple missions, including the 
capability to detect dismounts and facilitate the exploitation of this 
data.
    f. Strategic Lift (STRATLIFT). STRATLIFT supports deployment and 
redeployment of Soldiers and Equipment to the CENTCOM AOR, including 
the intra-theater movement and shipments associated with MRAP shipments 
to Theater.

    Mr. Garamendi. In your testimony 2 days ago in front of the Senate 
Armed Services Committee you stated that the National Guard needs ``Two 
years' notice for deployments.'' First, I'm curious from where did you 
come up with that number, since my Adjutant General tells me that his 
units can be mobilized with no notice and be ready to train? And 
moreover, even if your assertion is correct, with the Army Force 
Generation model, don't you have a certain percentage of the National 
Guard force ready to go in any given year? If this model has worked so 
well, why then, are you abandoning it now?
    General Odierno. Thirty-nine (39) days a year is the statutory 
number of days in a fiscal year for a Guard unit to train and includes 
1 weekend per month (24 days on Inactive Duty status) and 15 days of 
Annual Training on Active Duty status. In support of operational 
deployments, Guard units are given additional pay/training resources to 
complete a 5-year rotational model divided into 1-year periods, with 
the unit being available for mobilization and deployment in the fifth 
year. In the first two years, Guard units have 39 days each year for 
training. In the third year, National Guard Brigade Combat Teams (BCTs) 
have 48.5 days for training. Other units have 39 days. In the fourth 
year, BCTs have 54 to 60 days for training. Other units have 48.5 
training days (National Guard) or 45 training days (Army Reserve). In 
year 5 the unit is available for mobilization and deployment 
(consisting of 270 days deployed and 90 days for leave and 
demobilization training). Upon completion of the deployment or 
completion of the available year without a deployment, the unit returns 
to the Reset phase of their next 5-year cycle.
    The progressive readiness model has been effective and efficient to 
meet the demands of persistent conflict, while also balancing the needs 
of National Guard and Army Reserve Soldiers, their employers, and their 
families with respect to predictability of training requirements and 
deployments. Fiscal restraints and reduction in demand for forces post 
OEF will influence the Army's end strength and force structure.
    In contrast, Active units in the Train/Ready period can train for 
218 days prior to deployment. Because of their higher state of 
readiness, Active Component units can be deployed more rapidly than 
Reserve Component forces in response to a no notice or short notice 
crisis. Reserve Component units require additional time to mobilize, 
train, equip, and deploy. Analysis of Contingency Plan requirements 
indicates that there are timelines the National Guard/Reserve cannot 
meet due to the mobilization process. The Army constantly examines our 
force structure to ensure we have the right force properly manned, 
trained, and equipped to accomplish the missions outlined in the 
Defense Strategic Guidance.
    Mr. Garamendi. In your testimony two days ago in front of the 
Senate Armed Services Committee you stated that National Guardsmen 
train ``39 days a year.'' And that ``Active Component trains over 250 
days a year.'' Where are you getting these numbers from and can you 
please provide me the documentation that backs up this statement? You 
also stated that utilizing more National Guardsmen in place of Active 
Component solders would mean ``if you decide to go that way, you're 
taking significant risk in being able to respond to unknown 
contingencies.'' General, isn't that your job to have these soldiers 
ready? Please explain why you would be unable to maintain a ready force 
if the Reserve Component is utilized more?
    General Odierno. Thirty-nine (39) days a year is the statutory 
number of days in a fiscal year for a Guard unit to train and includes 
1 weekend per month (24 days on Inactive Duty status) and 15 days of 
Annual Training on Active Duty status. In support of operational 
deployments, Guard units are given additional pay/training resources to 
complete a 5-year rotational model divided into 1-year periods, with 
the unit being available for mobilization and deployment in the fifth 
year. In the first two years, Guard units have 39 days each year for 
training. In the third year, National Guard Brigade Combat Teams (BCTs) 
have 48.5 days for training. Other units have 39 days. In the fourth 
year, BCTs have 54 to 60 days for training. Other units have 48.5 
training days (National Guard) or 45 training days (Army Reserve). In 
year 5 the unit is available for mobilization and deployment 
(consisting of 270 days deployed and 90 days for leave and 
demobilization training). Upon completion of the deployment or 
completion of the available year without a deployment, the unit returns 
to the Reset phase of their next 5-year cycle.
    The progressive readiness model has been effective and efficient to 
meet the demands of persistent conflict, while also balancing the needs 
of National Guard and Army Reserve Soldiers, their employers, and their 
families with respect to predictability of training requirements and 
deployments. Fiscal restraints and reduction in demand for forces post 
OEF will influence the Army's end strength and force structure.
    In contrast, Active units in the Train/Ready period can train for 
218 days prior to deployment. Because of their higher state of 
readiness, Active Component units can be deployed more rapidly than 
Reserve Component forces in response to a no notice or short notice 
crisis. Reserve Component units require additional time to mobilize, 
train, equip, and deploy. Analysis of Contingency Plan requirements 
indicates that there are timelines the National Guard/Reserve cannot 
meet due to the mobilization process. The Army constantly examines our 
force structure to ensure we have the right force properly manned, 
trained, and equipped to accomplish the missions outlined in the 
Defense Strategic Guidance.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. RUNYAN

    Mr. Runyan. The M1 Abrams engine fuel efficiency initiative is one 
of the critical upgrades required to extend the life of the tank to 
2045. Previously, the Army testified that 60% of the maintenance costs 
for the Abrams is related to the engine and transmission, and that by 
improving the power train, the Army would achieve 17% improvement in 
fuel efficiency. HASC also understands this pending upgrade will 
provide $1.6 billion in savings. What is the funding status of this 
engine upgrade program?
    General Odierno. The Abrams Fuel Efficiency Initiative (FEI) is an 
effort that leverages existing improvements in turbine engine and 
transmission technology to reduce the amount of fuel consumed. This 
initiative will reduce the number of component parts in the powertrain 
(engine and transmission) to lower operational and support costs. The 
Product Manager for the Abrams Tank is actively supporting an Army 
Capabilities Integration Center (ARCIC) led cost benefit analysis (CBA) 
for a more fuel efficient Abrams powertrain. The alternatives being 
considered are: Transmission FEI only; Full Turbine Powertrain (engine 
& transmission) FEI; GDLS diesel powertrain (for potential Ground 
Combat Vehicle (GCV) commonality); BAE Hybrid Electric Diesel (for 
potential GCV commonality); L3 1790 Diesel; and the Common Aviation 
Turbine program. The CBA is expected to be completed in 4QFY13.
    The Abrams FEI initiative is not currently an approved or funded 
program, but could become a core Engineering Change Proposal (ECP) 
effort in a future Abrams ECP-2 modernization effort. The Army is 
keenly aware of the benefits of an Abrams FEI effort and will review 
opportunities to pursue an executable FEI program once the ARCIC CBA is 
complete.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH

    Ms. Duckworth. In the Army's FY2014 request for Procurement 
programs, you requested $592.2 million in research and development for 
the Ground Combat Vehicle program. Are you concerned about the 
programmatic risk we are assuming by essentially letting one contractor 
run the timeline for research and development? I as much as any of my 
fellow Members on the Committee want our soldiers to have modernized 
and effective equipment that is worthy of the best military in the 
world, but can you speak to the need of this vehicle that current 
assets cannot provide? Do you believe that those functionalities are 1) 
attainable and 2) worth the cost and potential program overruns we 
might incur? Are the functions of having a higher seating capacity 
worth the $24 billion? How do you respond to criticisms that we would 
be spending $28 billion (a conservative estimate that assumes all goes 
according to plan) on a Ground Combat Vehicle on a major weapons system 
that is uncertain to have utility in future conflicts?
    Secretary McHugh. 1. The Army understands the programmatic risk 
associated with carrying one vendor into the Engineering and 
Manufacturing Development (EMD) phase. However, in light of the current 
fiscal environment and after a careful assessment, the Army believes 
the cost to carry a second vendor at approximately $2.5B into the EMD 
phase would not, with any degree of certainty, yield a corresponding 
significant programmatic savings or risk reduction. We believe, based 
on the use of mature technologies and the progress made in the 
Technology Development (TD) phase, that the current strategy is low-
moderate risk and achievable.
    2. Current vehicles do not provide the necessary combination of 
force protection, lethality, mobility, and growth potential to pace 
future threats in both the Combined Arms Maneuver (CAM) and Wide Area 
Security (WAS) environments. Ten years of adapting the current Infantry 
Fighting Vehicle (IFV) to an ever-changing threat has quickly reduced 
the space available on the IFV to adjust to future threats. The Ground 
Combat Vehicle (GCV) will allow us to protect our Soldiers to the 
anticipated level of threat, as well as have the potential to grow 
capabilities (protection, lethality, network, etc . . . ) in the 
future. In Operation Iraqi Freedom the IFV was particularly vulnerable 
to IEDs, continually putting the mounted infantry squad at high risk. 
Making the IFV more survivable against IEDs resulted in an IFV that is 
still under-protected, under powered, and challenged to house the full 
suite of network equipment required to leverage our communications 
technology advantages over the enemy.
    3. The functionalities are both attainable and worth the 
investment. The GCV program is based on the use of mature technologies 
to mitigate the risk of potential program overruns. The requirements, 
as laid out in the current Draft Capabilities Development Document 
(CDD), are achievable. Supporting technologies such as armor, 
propulsion systems (engine and transmissions), and weapons are mature 
and ready to enter the EMD phase. Our focus will continue to be on 
integrating key components and subsystems. In fact, during the TD phase 
the Army adjusted the requirements to reduce technology-related risks 
and better align with achievable technologies and reduce unit cost. The 
Army will continue to use an Independent Review Team for identifying 
technology risks and to adjust the appropriate requirements as 
necessary.
    4. The $24 billion purchases protection, lethality, adaptability, 
mobility, and space, weight, power & cooling (SWaP-C). Adequate 
protection and the ability to adapt that protection cause the need for 
a new hull; the current hull is unable to provide both the protection 
and adaptability. In designing a new hull, the Army addressed Manpower 
and Personnel Integration (MANPRINT) considerations to inform a new 
hull design, one of which was squad integrity. The ability to carry the 
entire squad increased mission effectiveness and reduced casualties 
because it enabled squad deployment with unit integrity, providing 
immediate, coherent combat power on the ground. The added cost of 
increasing seating capacity is estimated at $200 thousand per vehicle, 
or approximately $375 million for the 1,874 vehicles. Approximately 
$375 million is the cost of adding the additional seating capacity of 
two Soldiers and gaining squad integrity.
    5. The GCV investment provides the Army a combination of increased 
force protection, lethality, mobility and growth potential to defeat 
threats in both the CAM and WAS environments. The Army must equip its 
forces across the range of military operations to ensure that it can 
deter and defeat future threats. The Armored Brigade Combat Team (ABCT) 
is the tactical force element that is designed purposefully to defeat 
those state adversary capabilities that could threaten allies, 
proliferate Weapons of Mass Destruction (WMD), or hold vital interests 
at risk. The GCV closes the gaps of the current IFV. The GCV is 
designed to be effective in both CAM and WAS to include being adaptable 
to the uncertainty of future conflict requirements. The IFV mission is 
a critical piece of the Army role to counter WMD, to project power 
despite Anti-Access and Area Denial (A2/AD), and to defeat and deter 
aggression.

    Ms. Duckworth. Last week, your office issued a concerning memo to 
Members of Congress advising us of a change in policy regarding 
deployments of Army National Guard and the Army Reserve where you 
propose canceling some or all future deployments for the Army National 
Guard beginning in FY14. The memo stated that cost savings was one of 
the reasons for this drastic and seemingly counterintuitive change. I 
as much as anybody want to make sure we are spending less, not more; 
and smarter. How much do you estimate would be saved by replacing 
Guardsmen with Active Duty personnel on overseas deployments? Have you 
factored into account the long-term costs Active Duty personnel would 
have, rather than the short-term savings for FY14? A recent report from 
The Reserve Forces Policy Board found that the life-cycle cost of one 
National Guardsman is less than one third that of his Active Duty 
counterpart. Considering that guardsmen train and perform to the same 
standards; can perform any mission as activity duty; and no longer 
incur expenses such as dependent housing, schooling, and health care 
once they complete their deployment, how do you see this as an 
effective long-term cost-savings measure for the Army? Why would you 
remove the Army National Guard from historically Guard-led missions in 
Kosovo, the Sinai, and the Horn of Africa, where trust and partnership 
have already been established? Would removing the Army National Guard 
from overseas deployments cause a significant drop in the high levels 
of readiness that the Guard has attained through over a decade of 
overseas operations? Wouldn't this drop in readiness incur additional 
long-term costs in order to return to readiness levels sufficient for 
future threats? How do you justify your commitment to the Total Force 
Policy if you intend on restricting or eliminating the Army National 
Guard's rotation in overseas operations?
    Secretary McHugh and General Odierno. In FY13, the Army still faces 
a more than $13 billion Operation and Maintenance account shortfall. 
This includes the $5.5 billion reduction due to sequestration and an 
$8.3 billion shortfall in the Overseas Contingency Operations (OCO) 
Operations and Maintenance Army (OMA) account. The emergency 
reprogramming action being considered by Congress would restore $5 
billion of the $8.3 billion OCO OMA shortfall. However, without any 
additional transfer authority or supplemental, the Army would be forced 
to fund the remaining $3.3 billion OCO OMA shortfall from its already 
reduced Base OMA account. We need to save money and find every dollar 
we can. This has also forced us to make some tough choices, and the 
decision to change the sourcing for the Kosovo, Sinai, and Horn of 
Africa missions from Reserve Component to Active Component (AC) units 
is one of those decisions. We estimate it will allow us to save $84.8 
million dollars. It is important to note that RC units are not alone in 
being impacted by the current fiscal environment. The fiscal 
constraints, combined with ongoing mission analysis and requirement 
changes, have resulted in the cancellation of worldwide deployments for 
57 AC units this fiscal year alone, and more are being considered in 
the future.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. Last week it came to my attention that the Army is 
taking away some Guard missions under the guise of cost savings. 
According to a memo released last week, beginning in FY14 the Army will 
substitute Active Component Units for Reserve Components where cost 
savings are possible. My biggest concern is that taking away these 
Guard deployments will marginalize the force and potentially take it 
back to pre-9/11 Strategic Reserve status. Congress has put a 
tremendous amount of effort and tens of billions of dollars into making 
the Army National Guard an operational force over a decade of conflict. 
I am all for cutting the budget and doing it smartly, but gentlemen 
this is just another step too far. If the point is to save money, it 
should be noted that a National Guard member costs about one-third of 
his Active Duty counterpart, and nearly $2.6 billion could be saved for 
every 10,000 positions shifted from the full-time AC to the part-time 
Guard. It's time to relook at the savings that can be found in 
rebalancing the force.
    This proposal is counter to the Army's promise of keeping the Guard 
and Reserve operational and represents what amounts to a reduction in 
mission for the National Guard. The Army National Guard of 2013 is the 
best-manned, best-trained, best-equipped, and most experienced force in 
its long history. Ceasing overseas deployments of National Guard troops 
will cause a domino effect ultimately resulting in a diminishment of 
the great investment Congress has made in the Guard over the last 
decade.
    If you have anything to add about this issue, I welcome your 
thoughts.
    Secretary McHugh and General Odierno. In FY13, the Army faces the 
combined effects of a sequestered budget and an increase in theater 
demand. These two have put a $13 billion pressure on the Army's 
Operation and Maintenance accounts. This includes the $4.6 billion 
Operation and Maintenance Army (OMA) reduction due to sequestration and 
an $8.3 billion theater activities level higher than the FY13 
President's Overseas Contingency Operations (OCO) budget request. The 
emergency reprogramming action being considered by Congress would 
restore $5 billion of the $8.3 billion OCO OMA shortfall. However, 
without any additional transfer authority or supplemental, the Army 
would be forced to fund the remaining $3.3 billion OCO OMA shortfall 
from its already reduced base OMA account. We need to save money and 
find every dollar we can. This has forced us to make some tough 
choices, and the decision to change the sourcing for the Kosovo, Sinai, 
and Horn of Africa missions from Reserve Component to Active Component 
units is one of those decisions. We estimate it will allow us to save 
$84.8 million across FY13 and FY14. It is important to note that RC 
units are not alone in being impacted by the current fiscal 
environment. The fiscal constraints, combined with ongoing mission 
analysis and requirement changes, have resulted in the cancellation of 
worldwide deployments for 57 AC units this fiscal year alone, and more 
are being considered in the future.
    Understanding fully-burdened life cycle costs by component is an 
important factor in deciding the appropriate component for a mission, 
as is readiness, responsiveness, and availability. The Armed Forces 
Policy Board estimate was limited in its scope in that it did not 
address institutional overhead such as schools, training facilities, 
maintenance, and transportation in preparation for an operational 
deployment. Additionally, the life cycle costs for Reserve Components 
increases as they are used in an Operational Reserve role and cost 
basically the same as the Active Component when mobilized.
    The Army will continue to train, man and equip the RC through the 
progressive readiness model for preplanned missions. The RC provides 
unique capabilities to meet geographic combatant command requirements; 
currently we have over 39K deployed worldwide.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY

    Mrs. Roby. As I understand the Budget Request, our Army has a 
substantial problem of underfunded Operations and Maintenance accounts, 
which has forced you to make hard decisions. As a general statement, 
the O&M problem is forcing you to use your Procurement Accounts as a 
bill payer to cover the O&M shortfall.
    Given this O&M challenge, would you agree that when this Committee 
considers decisions for the FY14 bill, we can help you best by 
carefully considering the O&M impacts on the Army?
    Secretary McHugh and General Odierno. The Committee can best help 
the Army by carefully considering the O&M budget submission and help us 
buy back the readiness we will lose due to the impacts of sequestration 
in FY13. The Army will outline the buyback of readiness in the Notice 
to Congress on Unfunded Priorities (Section 1003 of the National 
Defense Authorization Act for Fiscal Year 2013).
    Mrs. Roby. The National Guard continues to benefit greatly from the 
multimission capability of the Lakota helicopter. Its versatility, low 
cost of maintenance, and reliability continue to greatly assist the 
National Guard in their role of supporting civil authorities with a 
wide range of missions. Moreover, the increasing need for helicopters 
to assist the Border Patrol and State law enforcement agencies in 
keeping our borders safe is a crucial component of any immigration 
reform.
    As the Army continues to look for the Guard as more of an 
Operational versus a Strategic Reserve, are we ensuring that NORTHCOM 
is proactively working with the TAGS to leverage National Guard 
aviation units' unique ability to work with Federal and State 
authorities in providing critical rotary-wing capacity for border 
security?
    Secretary McHugh and General Odierno. The United States Northern 
Command (NORTHCOM) and the Department of Homeland Security are working 
hand-in-hand with the National Guard Bureau to ensure that their 
mission requirements are resourced adequately. The current employment 
of the 11 UH-72A Lakotas on the southern border to help reinforce the 
Customs and Border Protection's Office of Air and Marine fleet of 
nearly 300 aircraft is just one of many examples. While the UH-72A is a 
very capable aircraft in a permissive environment like the border 
mission, it is only one of many aircraft the National Guard has at its 
disposal to execute that particular mission.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE

    Mr. Bridenstine. I am interested in the Regionally Aligned Brigade 
concept. I think language and cultural training will makes our general 
purpose forces more effective. How will this concept work in practice? 
Will a brigade assigned to, say, Africa Command remain tied to that 
COCOM? How will sequestration impact the deployment of Regionally 
Aligned Brigades?
    Secretary McHugh and General Odierno. The Regionally Aligned Forces 
(RAF) concept is an organizing principle for the provision of Army 
forces to the geographic and functional Combatant Commands (CCMDs). RAF 
are drawn from the Army Total Force, which includes the Active Army, 
Army National Guard and Army Reserve components. Regional alignment of 
the Army Total Force enables the Army to support the CCMD with more 
versatility, greater responsiveness, consistent availability and 
focused commitment. As part of the concept, Brigade Combat Teams (BCTs) 
will be allocated to CCMDs in support of all Theater Campaign Plan 
requirements, including operational missions, bilateral and 
multilateral military exercises and theater security cooperation 
activities. Most forces are based in CONUS but aligned to CCMDs for 
planning, coordination, and engagement.
    Army Forces will achieve a baseline of training that focuses on 
combined arms maneuver and wide area security, while developing the 
language, regional expertise and cultural training necessary to support 
CCMD-directed requirements. Through active engagement in various 
missions and activities, ranging from ongoing operations and exercises 
to small-scale security cooperation activities, soldiers and units will 
build their individual and institutional knowledge of the culture and 
potential operating environment. This will energize our leaders and 
soldiers, facilitate an expeditionary mindset, and better prepare them 
for future operations should the need to respond to conflict arise.
    Habitual alignment will occur at Echelon above Brigade (Corps and 
Division level); although full implementation of habitual alignment 
will not be possible before FY17. While it is highly desirable to 
maintain habitual alignment at BCT level, the practicalities of current 
defense missions and the mix of BCT capabilities makes this a goal that 
may not be fully met.
    The cost to implement the RAF concept will be drawn entirely from 
the current Army O&M budget. While RAF implementation is viable under 
sequestration, the ability for the concept to reach full potential in 
supporting CCMD requirements will be delayed across additional budget 
years. This is mainly due to decreased funding for CCMD programs, 
exercises, Department of State (DOS) Title 22 programs, and decisive 
action training for units in FY13. Regional alignment does not create 
new, unfunded requirements for training, equipping, or employing the 
Army Force, nor does it create new programs for overseas employment. It 
better organizes and prepares the Army to fulfill existing, funded 
requirements.
    Mr. Bridenstine. The Paladin Integrated Management system will be 
built in my home state of Oklahoma at Fort Sill. Can you talk about the 
status of testing and evaluation? Please describe why PIM is so 
important to the warfighter.
    Secretary McHugh and General Odierno. Testing and evaluation of the 
Paladin Integrated Management (PIM) system remains on schedule. The 
system has fired over 5,000 test rounds, been driven over 7,000 miles, 
and is meeting the program requirements. A Limited User Test of six 
days of Operational Testing was successfully completed in November 
2012. Soldier feedback on system performance has been favorable. PIM's 
new chassis provides additional size, weight, and power capacity to 
support add-on armor for improved force protection and the ability to 
accommodate current and future Army network requirements. PIM shares a 
common power train with the Bradley Fighting Vehicle enabling this 
system to maneuver with the Armored Brigade Combat Team combat 
vehicles, while reducing the logistical footprint. The Army's current 
self-propelled howitzer, the M109A6 Paladin, does not provide 
sufficient force protection for Soldiers on today's battlefield and 
cannot support key technology integration such as the Network and the 
Common Remotely Operated Weapon Station. Without the PIM program, the 
Army would be required to maintain the current M109A6 howitzers with 
chassis built in the 1960s that are 12,750 pounds over the design 
specifications. Additionally, the engines have already been overhauled 
2-3 times each and the M109A6 has no ability to stay with the Abrams 
and Bradley in mobile warfare.
                                 ______
                                 
                  QUESTION SUBMITTED BY MRS. WALORSKI

    Mrs. Walorski. Last year sixteen Adjutants General requested 
funding to modernize the aging HMMWV fleet. Over 60% of our vehicle 
inventory is more than 20 years old, rendering them unable to 
accommodate the necessary enhancements through the RECAP process that 
result in the payload, power, fuel efficiency and systems required to 
meet the missions of tomorrow. In the recently approved FY2013 
Department of Defense, Military Construction and Veterans Affairs, and 
Full-Year Continuing Appropriations Act, a $100 million fund to begin a 
multiyear program to modernize our rapidly aging HMMWV fleet was 
approved. What are your plans relative to this issue, and what priority 
do you attach to it relative to your modernization programs?
    General Odierno. The Army supports the use of the $100M to continue 
the highly successful Recapitalization (RECAP) program at Red River 
Army Depot while divesting excess High Mobility Multipurpose Wheeled 
Vehicles (HMMWVs). The Army considers this program the most cost 
effective means to improve overall readiness, but is placing less 
priority on RECAP and more emphasis on divestiture. The Army HMMWV 
inventory on hand (149K) exceeds both current (134K) and projected 
Light Tactical Vehicles requirements (all projected to be significantly 
lower than 134K). Army data shows that the Light Tactical fleet for the 
Army National Guard (ARNG) will be 7.9 years old after they divest 
their excess HMMWVs which account for the majority of the vehicles over 
20 years old. The ARNG supports the Army's equipment modernization 
strategy to modernize Light Tactical Vehicles by recapitalizing 
existing Up-Armor HMMWVs. During the RECAP process, HMMWVs are 
disassembled, rebuilt with parts support from AM General, and returned 
to units in the latest configuration with ``zero miles, zero hours.'' 
The Army's current approved requirement to procure new vehicles is the 
Joint Light Tactical Vehicles and we have prioritized our resources to 
provide this much needed capability.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
